VII. INDEX TO APPENDICES

APPENDIX A

!

DEPARTMENT OF DEFENSE
WASHINGTON HEADQUARTERS SERVICES
1155 DEFENSE PENTAGON
WASHINGTON, DC 20301-1155

27 OCT 2015
MEMORANDUM FOR ELIZABETH AVILES -WYNKOOP
SUBJECT: Notice of Proposed Termination During Probationary Period
The purpose of this memorandum is to notify you I am proposing (Proposal) to terminate
you during your probationary period from the position of Program Analyst, GS-0343-13,
Washington Headquarters Services (WHS), Enterprise IT Services Directorate (EITSD), Joint IT
Service Provider Pentagon (JITSPP), and from the Federal service. This action is being
effectuated during your probationary period in accordance with 5 U.S.C. § 7511, 5 CFR § 315.802
and 5 CFR § 315.804, Reference (a) and Administrative Instruction 8, Reference (b) below, and
will be effective no earlier than thirty (30) days from the date you receive this proposal notice.
You have been employed in your position since June 29, 2015, Reference (c). While you
do have prior Federal civilian service; your current appointment requires you to serve a one-year
probationary period. Your current probationary period ends on June 28, 2016.
The probationary period is used to determine an individual's fitness for continued
employment in the Federal government. It is a set period of time in which an agency is responsible
for assessing a candidate for a finalized appointment in the Federal civil service and for deciding
either to continue or terminate the candidate's employment. Thus, the probationary period is the
final stage of the assessment process under which a candidate's ability, knowledge and skills are
observed and a final selection decision is made in light of those observations. Consistent with the
notion that the probationary period is a part of the assessment process, “true probationers” have
generally had limited pre-termination procedural rights and post-termination appeal rights as
compared to employees with finalized appointments.
For the reasons stated below, I believe you are a true probationer with limited pre­
termination procedural rights and post-termination appeal rights. Even though you are currently
serving on a probationary period that ends on June 28, 2016, however, you may qualify as an
“employee” with appeal rights under 5 U.S.C. Chapter 75.
In order to qualify as an “employee” with appeal rights, an individual in the competitive
service must show that she either is not serving a probationary or trial period under an initial
appointment or has completed one (1) year of current continuous service under an appointment
Page 1 of 8
FOR OFFICIAL USE ONLY - PRIVACY SENSITIVE.
Any misuse or unauthorized disclosure can result in both civil and criminal penalties.

Pleading Number: 2016009558

Submission date : 2016-02-29 09:32:46

Confirmation Number: 772200024

Tab 4b Ref a
page 21 of 148

other than a temporary appointment limited to one (1) year or less. 5 U.S.C. § 7511(a)(1)(A),
Reference (a).
“Current continuous service” means a period of employment or service immediately
preceding an adverse action without a break in federal civilian employment of a workday. Military
service cannot be added to civilian service to satisfy the current continuous service requirement of 5
U.S.C. § 7511 and thus to provide appeal rights as an “employee.”
An individual who has not served a full year under her appointment, or who has had a break
in service, can show that she has completed the probationary period and so is no longer a
probationer, by tacking on prior service if: (1) the prior service was rendered immediately
preceding the probationary appointment; (2) it was performed in the same agency; (3) it was
performed in the same line of work; and (4) it was completed with no more than one break in
service of less than 30 days. 5 C.F.R. § 315.802(b), Reference (a). Alternatively, an individual in
the competitive service can show that, while she may be a probationer, she is an “employee” with
Chapter 75 appeal rights because immediately preceding the adverse action, she had completed at
least one year of current continuous service under other than a temporary appointment limited to
one (1) year or less. 5 U.S.C. § 751 l(a)(l)(A)(ii), Reference (a).
I believe you are a true probationer with limited rights for the following reasons:
You first entered Federal service on temporary appointments as a GS-0322-03 Clerk Typist
with the Department of Navy, Department of Commerce and the Department of Army from
September 13, 1982 - April 3, 1983 (Reference (d) at pages 1 - 7). You then converted to a career
conditional appointment on April 4, 1983 as a GS-0322-03 Clerk Typist with the Department of
Army and your first initial probationary period began (Reference (d) at page 8). You had
continuous service from April 4, 1983 - April 27, 1990 as a GS-0322-03 Clerk Typist and a GS303-04 Work Order Clerk (Typing) with the Department of Army; a GS-1106-04 Procurement
Clerk (Typing) with the Department of Navy; a GS-1 102-05 through GS-1102-11 Contract
Specialist with the Defense Mapping Agency, the Department of Navy, the Department of
Agriculture and the General Services Administration (Reference (d) at pages 8 - 19). During this
time you completed your first initial probationary period.
You then had a break in service for just under 13 years. From April 20, 2003 - January 7,
2009, you became a GS-1102-11 through GS-1102-12 Contract Specialist with the Department of
the Interior and the Small Business Administration (Reference (d) at pages 20 - 23).
You then had another break in service for over 214 years. From August 14, 2011 September 30, 2014, you became a GS-1101-13 Contract Oversight Specialist with Housing and
Page 2 of 8
FOR OFFICIAL USE ONLY - PRIVACY SENSITIVE.
Any misuse or unauthorized disclosure can result in both civil and criminal penalties.

Pleading Number: 2016009558

Submission date : 2016-02-29 09:32:46

Confirmation Number: 772200024

Tab 4b Ref a
page 22 of 148

Urban Development where you started and completed another"" initial probationary period
(Reference (d) at pages 24 - 27).
You then had another break in service for nearly 9 months. On June 29, 2015, you entered
your current position as a GS-0343-13 Program Analyst, where you started another initial
probationary period (Reference (c)). Your current duties as a Program Analyst are different than your previous duties as a Clerk
Typist, Work Order Clerk (Typing), Procurement Clerk (Typing), Contract Specialist and Contract
Oversight Specialist (Reference (e))1. For example, while your current duties as a GS-0343-13
Program Analyst include acting as a Contracting Officer’s Representative, they also include
evaluating Contractor employees’ performances, reviewing programs, working with the budget,
analyzing funds and conducting presentations and briefing. A Program Analyst has more varying
duties than a Contract Specialist or a Contract Oversight Specialist.
Therefore, you have not completed one (1) year of current continuous service under an
appointment other than a temporary appointment limited to one (1) year or less. Additionally, your
prior service was not rendered immediately preceding the probationary appointment (you had a
break in service for almost 9 months); your prior service was not performed in the same agency
(you have never before worked for Washington Headquarters Services, Department of Defense); it
was not performed in the same line of work (you are now a Program Analyst and your prior service
was as a Clerk Typist, Work Order Clerk (Typing), Procurement Clerk (Typing), Contract
Specialist and Contract Oversight Specialist); and your prior service was completed with more than
one break in service of more than 30 days (you had 3 breaks in service for 13 years, 214 years and 9
months, respectively).
For these reasons, I believe you are a true probationer and not an “employee” with appeal
rights under 5 U.S.C. Chapter 75. Since 1 believe you to be a true probationer, as your supervisor, it
is my responsibility to evaluate your conduct and perform an overall fitness for government service
observation of you in order to reach a conclusion regarding whether or not you should be retained in
government service. You have failed to demonstrate your qualifications for continued employment
and therefore, 1 am proposing that you be terminated from Federal service during your probationary
period, for the following reasons:
Since the commencement of my appointment as your supervisor, you have not
recognized me as your supervisor or taken instruction from me. For example, on August 26,
1 Located at Reference (e) is your current Position Description (PD). You were hired as a Program
Analyst at the GS-0343-13 level (Reference (c)).
Page 3 of 8
FOR OFFICIAL USE ONLY - PRIVACY SENSITIVE.
Any misuse or unauthorized disclosure can result in both civil and criminal penalties.

Pleading Number: 2016009558

Submission date : 2016-02-29 09:32:46

Confirmation Number: 772200024

Tab 4b Ref a
page 23 of 148

2015, you left work early due to what you characterized as an emergency. When 1 instructed you
by email that you should have let me know that you were leaving the office early because I was
your supervisor and needed to know, you did not acknowledge your wrongdoing or agree to my
reasonable request. Instead, you informed me that you had requested that my supervisor prove to
you that I was, in fact, your supervisor by providing you with a copy of my SF-50 stating that I
was your supervisor, Reference (f). My supervisory chain assigned me as your supervisor and
agrees that I am your supervisor. Neither 1 nor my supervisory chain has to “prove” to you that I
am your supervisor before you are required to follow my legitimate supervisory instructions.
Your inappropriate response to my appropriate supervisory request was insubordination.
You have also exhibited conduct which negatively impacts the ability of our office to
function effectively. Specifically, you have demonstrated a pattern of discourteous behavior
towards contractors, fellow employees and management; repeatedly communicated issues
outside of the appropriate EITSD chain of command; and continually berated the capabilities and
experience of your fellow government employees, References (f), (g), (h) and (i). Your behavior
is totally unacceptable.
On Thursday, August 13, 2015, I met with you and gave you documentation regarding
specific observations and concerns pertaining to your inappropriate, overly aggressive, and
unprofessional conduct, References (f), (g), (h) and (i). During our meeting, 1 reiterated that I
wanted to assist you in improving your communication skills. I provided you information on the
Building and Retaining Customer Relationships training course offered by WHS on Friday,
September 25, 2015, Reference (g).
During this meeting, you stated you were concerned that I was conducting a “witch-hunt”
against you.
You also denied the validity of one of the incidents referenced in the
documentation. You did not dispute the validity of any of the other incidents. You further stated
you felt there was a double-standard in the workplace. 1 became concerned that, instead of
concentrating on your own misconduct, you became defensive and upset that other employees
were not also counseled with regard to their own inappropriate behavior and/or attitude. You
followed up our conversation with an email, dated August 13, 2015, addressed to me and Jerry
Russell, in which you attempted unsuccessfully to justify your unprofessional conduct,
Reference (i).
In your email correspondence, you explicitly exhibit your disdain and utter disrespect for
contractors; your opinion of the “unprofessional, crookedness, and unethical manner” by which
contracts are handled; and your opinion regarding the incompetency of fellow employees and
contractors. References (f), (g), (h) and (i). Your conduct is unprofessional and divisive to the
workplace.
Page 4 of 8
FOR OFFICIAL USE ONLY - PRIVACY SENSITIVE.
Any misuse or unauthorized disclosure can result in both civil and criminal penalties.

Pleading Number: 2016009558

Submission date : 2016-02-29 09:32:46

Confirmation Number: 772200024

Tab 4b Ref a
page 24 of 148

Further, you have consistently and inappropriately gone around and outside of your
chain-of-command to communicate your frustrations, negative comments and/or demands by
writing negative and inflammatory email to senior EITSD staff (at the SES level); despite being
counseled on the proper procedures and protocol of the chain of command. Specifically, on
Thursday, August 13, 2015, you sent an inappropriate email to Victor Shirley, Chief of Staff,
requesting removal of a fellow employee's authority as Task Monitor, because she, “doesn't
want to do her job”, Reference (j). This “badmouthing” of contractors, your coworkers and
supervisors is inappropriate, divisive and destructive to the office.
Similarly, on Thursday, August 27, 2015, you sent another inappropriate email to Mr.
Shirley, instructing him on how to properly manage the performance of members of the EITSD
Administration Team. Your “instructions” to Mr. Shirley were outside of the scope of your
duties as a Program Analyst, Reference (k).
Your misconduct, as described above, will not be tolerated.
On August 28, 2015, before the Building and Retaining Customer Relationships training
course mentioned above commenced, I placed you on paid Administrative Leave, Reference (h).
Administrative leave is paid, non-duty time, that is not charged to your leave account. To date,
you remain on Administrative Leave.
Despite my efforts to guide and counsel you, your conduct has not improved. Your conduct
has not risen to the level necessary to retain you in your position. You have been previously
counseled regarding your inappropriate and disrespectful behavior towards me, your other
supervisors, contractors and employees; yet you continue to be discourteous and to engage in
misconduct. You have not improved.
As a GS-13 Program Analyst, you are expected to exhibit professionalism and respect
when communicating with management officials, contractors, employees, or any other person(s)
you interact with while on duty. You have fallen short of these expectations and have engaged in
misconduct and disrespect. As such, I have determined that your misconduct has negatively
impacted office operations and our mission.
I have determined that you are not fit for continued employment in the Federal government
because you have failed to demonstrate the appropriate ability, knowledge and skills to become a
GS-0343-13 Program Analyst. Therefore, you have demonstrated that you are not a suitable
candidate for retention beyond your probationary period. It is for these reasons I am proposing to
terminate your employment during your probationary period. A decision on this proposal will not
be effected less than 30 days after the proposal is issued. This action is being taken to promote the
efficiency of the service.
Page 5 of 8
FOR OFFICIAL USE ONLY - PRIVACY SENSITIVE.
Any misuse or unauthorized disclosure can result in both civil and criminal penalties.

Pleading Number: 2016009558

Submission date : 2016-02-29 09:32:46

Confirmation Number: 772200024

Tab 4b Ref a
page 25 of 148

You have the right to reply to this proposal in person, in writing, or both, stating why this
proposed action should not be taken. In your reply, you may also state why you believe you are
not a probationary employee and/or why you are a probationer with “employee” status such that
you are entitled to Chapter 75 appeal rights. You may submit affidavits and other documentary
evidence to support your reply. Any reply should be made to Mr. Jerry H. Russell, Jr., Division
Chief, Resource & Supplier Management, no later than ten (10) calendar days after receipt of
this notice. You may schedule an appointment to reply in person at (571) 372-0110 or
ierrv.h.russell.civ@mail.mil. If more time is needed for the preparation of your reply, you must
request an extension in writing to Mr. Russell explaining why you need more time; an extension
of time is not automatic and such a request will be considered based upon the justification
provided. Your reply will be given full and fair consideration.
You will receive a written decision on this proposal as soon as possible after your reply is
received. In the event you elect not to reply, a decision will be made on the evidence now
available and a letter containing the decision will be issued to you. You will remain in a paid
administrative leave status during the entire notice period. The decision on this proposed
termination action will be effective no earlier than thirty (30) days from the date you receive this
proposal notice.
You have the right to select an attorney or other representative to assist you in the
preparation and presentation of your reply. However, you may not choose a member of the
Washington Headquarters Services Human Resources Directorate staff; an agency Equal
Employment Opportunity manager, counselor, investigator, or specialist; or anyone whose
service as a representative would result in a conflict or apparent conflict of interest or position,
conflict with the priority needs of the agency, or cause unreasonable costs to the Government.
Any choice of representative or change in representative must be designated in writing; include
your representative’s name, address, and phone number; be signed and dated by you; and be
submitted to Mr. Russell. You must make all arrangements for and pay all costs associated with
representation. Your representative, if an employee of the Washington Headquarters Services
Human Resources Directorate-serviced area, may also request a reasonable amount of official
time for these purposes if he or she is in a duty status. He or she must make arrangements for the
use of official time for such purpose with his or her supervisor.
If you have any questions about your rights or procedures contained herein; or the
material relied upon to support this proposed termination, you may contact Carene Reid of the
WHS, Human Resources Directorate (HRD), Labor and Management Employee Relations
Division, at (571) 372-4084 or carene.d.reid.ctr@mail.mil.

Page 6 of 8
FOR OFFICIAL USE ONLY - PRIVACY SENSITIVE.
Any misuse or unauthorized disclosure can result in both civil and criminal penalties.

Pleading Number: 2016009558

Submission date : 2016-02-29 09:32:46

Confirmation Number: 772200024

Tab 4b Ref a
page 26 of 148

If you are experiencing health or personal problems that may be impacting your job
conduct or performance, I encourage you to contact the Employee Assistance Program (EAP) at
(301) 677-7981. After hours, you may call 1-800-222-0364. The EAP has qualified counselors
available to provide expert guidance and counseling. The EAP is a confidential, free and
voluntary service. Your discussions with an EAP counselor will not be disclosed to anyone,
including me, without your permission, and your participation will not be noted in your Official
Personnel Folder (OPF).
You are asked to sign and date the Acknowledge Receipt copy of this memorandum. By
doing so, you will not forfeit any of the rights mentioned herein. Your signature does not indicate
your agreement or disagreement with this action. Your failure to sign will not void the content of
the memorandum.

Carol A. Ensley
Chief, Acquisition Management,
Washington Headquarters Services
Enterprise IT Standard Support and Services
Joint IT Service Provider-Pentagon

Acknowledge Receipt:

Date

Signature

Page 7 of 8
FOR OFFICIAL USE ONLY - PRIVACY SENSITIVE.
Any misuse or unauthorized disclosure can result in both civil and criminal penalties.

Pleading Number: 2016009558

Submission date : 2016-02-29 09:32:46

Confirmation Number: 772200024

Tab 4b Ref a
page 27 of 148

References:
(a) 5 CFR § 315.804, Termination of probationers for unsatisfactory performance or conduct;
5 U.S.C. 7511 Removal, Suspension more than 14 days, Reduction in grade or pay, or
furlough for 30 days or less; 5 CFR 315.802 Length of Probationary period, crediting
service.
(b) Administrative Instruction 8, Disciplinary and Adverse Actions dated May 7, 2008
(c) Standard Fonn 50; Appointment Program Analyst (GS13)
(d) Standard Forms 50 ( Prior Service)
(e) Position Description (GS 12/13 Program Analyst)
(f) Elizabeth Aviles-Wynkoop's Request for SF-50 for Supervisor, dated August 26, 2015
(g) Observations Document
(h) Administrative Leave Letter, dated August 28, 2015
(i) Email from Elizabeth Aviles-Wynkoop to Carol Ensley and Jerry Russell, Jr., dated
August 13, 2015
(j) Email from Elizabeth Aviles-Wynkoop to Vincent Shirley, et.al., dated August 13, 201 5
(k) Email from Elizabeth Aviles-Wynkoop to Vincent Shirley, et.al., dated August 27, 2015

Page 8 of 8
FOR OFFICIAL USE ONLY - PRIVACY SENSITIVE.
Any misuse or unauthorized disclosure can result in both civil and criminal penalties.

Pleading Number: 2016009558

Submission date : 2016-02-29 09:32:46

Confirmation Number: 772200024

Tab 4b Ref a
page 28 of 148

VII. INDEX TO APPENDICES

APPENDIX B

DEPARTMENT OF DEFENSE
WASHINGTON HEADQUARTERS SERVICES
1155 DEFENSE PENTAGON
WASHINGTON, DC 20301-1155

04 JAN 2016
MEMORANDUM FOR ELIZABETH AVILES-WYNKOOP
Subject: NOTICE OF DECISION ON PROPOSED TERMINATION DURING
PROBATIONARY PERIOD
In a memorandum dated October 27, 2015, your supervisor and Branch Chief, Carol
Ensley, proposed your termination during your probationary period (Proposal) from your
position of Program Analyst, GC-0343-13, Washington Headquarters Services (WHS),
Enterprise IT Services Directorate (EITSD), Joint Service Provider (JSP) and from the Federal
service. Reference (a). You received the proposal notice on or about November 6, 2015.
Reference (a).
The Proposal informed you of your right to reply, orally and/or in writing, within 10
calendar-days of your receipt of the memorandum, which was November 16, 2015. On Friday,
November 13, 2015, through your attorney, Bradley R. Marshall, you requested a 30-day
extension of time to submit an oral and/or written reply to the proposed action. On November
17, 2015, I granted you an extension until November 23, 2015. On November 18, 2015, your
attorney requested a second extension. I granted you the second extension of time to file your
written reply not later than 4:00 p.m. on December 7, 2015 and an extension of time to file your
oral reply not later than 4:00 p.m. on December 14, 2015. Your attorney and I agreed that your
oral reply would take place on Monday, December 14, 2015 at 1:00 p.m. at the Pentagon. On
Friday, December 11, 2015, at 12:18 p.m., you sent me an email informing me that you were
looking for a new attorney and you requested a third extension of time to file your oral and
written replies. I did not grant your third extension of time to file your oral and written replies
and expected to see you for the oral reply on Monday, December 14, 2015 at 1:00 p.m., as
previously agreed. Reference (b). On Monday, December 14, 2015, neither you nor your
attorney appeared for the scheduled' oral reply at 1:00 p.m. at the Pentagon. On Monday,
December 14, 2015, at 2:17 p.m., you sent me an email stating that you could not attend the oral
reply that day because of car trouble. You did not request an extension of time to present your
oral reply at that time. Reference (c).
Page 1 of 8
WARNING:
This document requires protection and safeguarding because it may be subject to the Privacy Act of 1974.

Pleading Number: 2016009558

Submission date : 2016-02-29 09:32:46

Confirmation Number: 772200024

Tab 4b
page 13 of 148

On Monday, December 14, 2015 at 1:47 p.m., you sent me your written reply. Reference (d).
Even though your written reply was seven (7) days late, I still considered it in rendering my
decision. You did not present an oral reply.
In your written reply, you did not dispute the fact that you are a true probationer. Also in
your written reply, you claimed that you should not be terminated during your probationary
period because the Human Resources Directorate never informed you as to whether or not you
were in a Union; the agency did not provide you an opportunity to present your oral and/or
written replies; I allegedly agreed to be your supervisor on August 14, 2015, instead of the
proposing official; you did not get paid for overtime you worked and you did not receive a
response to your request for overtime; you engaged in misconduct because you were new to the
office; the proposing official and Mr. Victor Shirley told you that you were walking on thin ice
and placed you on paid administrative leave; and you engaged in misconduct because you were
just doing your job as a Contracting Officer Representative.
I find that you are a true probationer and that your claims that you should not be terminated
during your probationary period to be without merit, for the following reasons:
I. TRUE PROBATIONER STATUS
As stated in the Proposal Notice, I find that you are a true probationer with limited pre­
termination procedural rights and post-termination appeal rights because you have not completed
one (1) year of current continuous service under an appointment other than a temporary
appointment limited to one (1) year or less. Additionally, your prior service was not rendered
immediately preceding the probationary appointment (you had a break in service for almost 9
months); your prior service was not performed in the same agency (you have never before worked
for Washington Headquarters Services, Department of Defense); it was not performed in the same
line of work (you are now a Program Analyst and your prior service was as a Clerk Typist, Work
Order Clerk (Typing), Procurement Clerk (Typing), Contract Specialist and Contract Oversight
Specialist); and your prior service was completed with more than one break in service of more than
30 days (you had 3 breaks in service for 13 years, 2Vi years and 9 months, respectively). See
Proposal Notice with References.
Additionally, since you have not disputed the fact that you are a true probationer, I find that
you have admitted it.
For these reasons, I find that you are a true probationer and not an “employee” with appeal
rights under 5 U.S.C. Chapter 75.

Page 2 of 8
WARNING:
This document requires protection and safeguarding because it may be subject to the Privacy Act of 1974.

Pleading Number: 2016009558

Submission date : 2016-02-29 09:32:46

Confirmation Number: 772200024

Tab 4b
page 14 of 148

II. MISCONDUCT
In your written reply, you did not dispute the fact that any of the charged misconduct
occurred, you merely provided the reasons you engaged in the misconduct. You did not dispute
that you refused to recognize Ms. Carol Ensley, the proposing official, as your supervisor, when
she was, in fact, your supervisor. You also did not dispute the fact that you did not follow Ms.
Ensley’s supervisory instructions, even though she was your supervisor. You did not dispute the
fact that you were discourteous to contract employees, fellow employees and management. You
did not dispute the fact that you inappropriately voiced your frustrations, negative comments
and/or demands by writing negative and inflammatory email to senior EITSD staff, outside of
your chain-of-command. You did not dispute the fact that you sent an inappropriate email to Mr.
Shirley, the WHS/EITSD/JSP Chief of Staff. Since you did not dispute the misconduct charged
in the Proposal Notice, I find that you engaged in the charged misconduct. Your excuses for
engaging in the misconduct (as stated in your written reply) do not negate the fact that you
engaged in the misconduct.
Regarding the remainder of the reasons for engaging in the charged misconduct that you
raised in your written reply, I find them to be without merit. I had no knowledge of your request
to the Human Resources Directorate (HRD) regarding your union status. Regardless, your
request to HRD has no bearing on your misconduct. Your claim that you believed I was your
supervisor instead of Ms. Ensley, does not absolve you of your acts of misconduct. In any event,
I never informed you that I was your supervisor instead of Ms. Ensley. Your claim that Mr.
Shirley and Ms. Ensley informed you that you were walking on thin ice and placed you on paid
administrative leave, has no bearing on the fact that you engaged in the charged misconduct. In
fact, if Mr. Shirley and Ms. Ensley did warn you that you had engaged in misconduct and needed
to watch your step, that was a fair warning because you are probationer and subject to
termination during your probationary period for engaging in misconduct. As stated above, it is
clear that you were provided ample opportunity to present your oral and/or written replies.
Finally, Ms. Ensley did issue you a memorandum responding to your request for payment for a
total of 147 hours of overtime on December 18, 2015. Reference (e).
III. PENALTY
Having sustained the charges against you, I now turn to the proposed penalty of
termination.
As the Deciding Official, I carefully considered all of the evidence in this case, including
the Proposal Notice; the material relied upon to support the proposal and your written reply.
Even though you are a true probationer, I analyzed the penalty phase of this action in two ways Page 3 of 8
WARNING:
This document requires protection and safeguarding because it may be subject to the Privacy Act of 1974.

Pleading Number: 2016009558

Submission date : 2016-02-29 09:32:46

Confirmation Number: 772200024

Tab 4b
page 15 of 148

first as if you are a true probationer and second as if you were an “employee” with appeal rights
under 5 U.S.C. Chapter 75.
Since you are a true probationer, I find the following regarding penalty: This organization is
in need of someone who is consistently capable of completing the duties of your position, at the
grade level of your position, on a reliable, timely, accurate and professional basis. Despite efforts to
guide and counsel you, your improvement has not risen to the level necessary to retain you in your
position. You have not demonstrated the ability to perform the essential functions of your position.
It is for these reasons that I am terminating you during your probationary period. This action is
being taken to promote the efficiency of the service.
Even assuming, arguendo, that you are an “employee” with appeal rights under 5 U.S.C.
Chapter 75, I find that the penalty of removal is appropriate for the following reasons: In
determining the appropriate penalty to impose for your misconduct, I considered the proposal
letter, the supporting record of evidence, and all relevant Douglas factors. I considered the
nature and seriousness of the offense as related to your position and responsibilities as a Program
Analyst.
Since your hiring on June 29 2015, you have developed a severely negative working
relationship with your supervisor, co-workers, and customers. This misconduct has created a
hostile working environment within the Washington Headquarters Services (WHS), Enterprise
Information Technology Services Directorate (EITSD), Joint Service Provider (JSP). This
misconduct is also the cause for your supervisor, Ms. Carol Ensley, to place you on
administrative leave on August 28 2015, only 44 business days after you began working for
EITSD.
On October 27 2015, you were officially served a Notice of Proposed Termination During
Probationary Period memorandum.
This notice highlights several serious aggravating
misconduct incidents of note, such as refusal to recognize your supervisor of record, Ms. Carol
Ensley, as your supervisor. You were insubordinate when you challenged Ms. Ensley’s authority
and refused to acknowledge Ms. Ensley’s supervisory requests. You engaged in repeated
patterns of misconduct and discourteous behavior towards fellow contractors, co-workers, and
management. This behavior is highlighted in several reference emails provided in the references
attached to the Notice of Proposed Termination During Probationary Period memorandum
issued to you. You engaged in divisive behavior with fellow WHS/EITSD/JSP co-workersreferring to them as “unprofessional, crooked, and unethical”. This is the cause for several
WHS/EITSD/JSP employees to submit formal complaints to Ms. Ensley about your divisive
behavior. As highlighted in the Proposal Notice, you communicated negative comments and/or
demands by writing negative and inflammatory emails to senior EITSD staff (at the SES-level),
Page 4 of 8
WARNING:
This document requires protection and safeguarding because it may be subject to the Privacy Act of 1974.

Pleading Number: 2016009558

Submission date : 2016-02-29 09:32:46

Confirmation Number: 772200024

Tab 4b
page 16 of 148

despite the fact that you were counseled on the proper procedures and protocol of the chain of
command. These are aggravating factors and are directly related to the performance of your job
duties and responsibilities as a Program Analyst, and do not appear to be inadvertent. Ms.
Ensley attempted to progressively counsel you regarding your misconduct, but she had no
success.
1 considered your job level and type of employment, including fiduciary role to be an
aggravating factor. As a GS-0343-13 Program Analyst within WHS/EITSD/JSP, you have a
responsibility to act as a Contracting Offer’Representative (COR), evaluate contractor employee
performance, review programs, collaborate with customers in developing budgets and spend
plans, and conduct presentations and briefings.
Due to the natdre of this work, all
WHS/EITSD/JSP Program Analysts, including you, are required to exhibit high standards of
professional conduct in the day-to-day performance of your job duties and functions. As a result
of your misconduct, 1 can no longer trust you to perform your duties and responsibilities as a GS0343-13 Program Analyst and a COR. I also find it aggravating that you refused to recognize
your supervisor as your supervisor. You appeared to believe that you had the right to select your
own supervisor, which is incorrect and disturbing for a subordinate. I considered the clarity with
which your supervisor placed you on notice that,you were engaging in misconduct to be an
aggravating factor. It is an aggravating factor that I do not believe you can be rehabilitated, since
you do not believe you did anything wrong and you were not apologetic. I finally considered
the fact that you have no disciplinary record and your length of total Federal service to be
mitigating factors.
I considered the consistency of the penalty with that imposed upon other employees for the
same offense and the adequacy of alternative sanctions to deter future misconduct. This penalty
is consistent with Office of the Secretary of Defense Administrative Instruction Number 8,
“Disciplinary and Adverse Actions,” and its Table of Penalties which recommends the following
first-offense penalties: Reprimand to a Removal for Insubordination; Reprimand to a Removal
for Impertinence, insolence, disrespectful conduct towards a supervisor; and Reprimand to a
Removal for Intimidating or aggressive behavior. Therefore, I find that the penalty of
removal/termination would be the appropriate penalty even if you were not a true probationer. I
find that no lesser sanction will deter future misconduct.

The effective date of this termination action is JANUARY 4, 2016.
IV. RIGHTS

Page 5 of 8
WARNING:
This document requires protection and safeguarding because it may be subject to the Privacy Act of 1974.

Pleading Number: 2016009558

Submission date : 2016-02-29 09:32:46

Confirmation Number: 772200024

Tab 4b
page 17 of 148

Since you are a true probationer, there are no direct appeal rights of this action to the U.S.
Merit Systems Protection Board (MSPB) unless you allege that your termination was taken
because of (1) discrimination based on partisan political reasons or marital status, or (2)
coqditions arising before appointment and the agency failed to follow required procedures. An
appeal may also be based on discrimination because of race, color, religion, sex, national origin,
handicapping condition, or age (provided that at the time of the alleged discriminatory action,
you were at least 40 years of age), but only if it is raised in addition to partisan political reasons,
marital status, or conditions arising before appointment and the agency failed to follow required
procedures.
Your petition of appeal must be filed in writing any time during the period beginning
with the day after the effective date of this termination, JANUARY 4, 2016 through the 30th day
after the effective date or during the period beginning with the day after the date of receipt of this
termination, through the 30th day after the date of receipt, whichever is later. You do not need
the Standard Form (SF-50), Notification of Personnel Action, relevant to the appealable action to
file an appeal to the MSPB. You may not file your appeal before the effective date of the action.
The appeal must be filed in writing with the MSPB. You may file at the following address:
Regional Director, Washington, D.C., Regional Office
U.S. Merit Systems Protection Board
1901 S. Bell Street
Arlington, Virginia 22202
(703) 756-6250
You may also file your appeal by facsimile at (703) 756-7112 or electronically at
www.mspb.gov using E-Appeal, the MSPB’s Internet filing procedure. E-Appeal is an
interactive application that follows an interview format. E-Appeal includes questions and
answers, as well as other help links appropriate to each section of the interview.
If you elect to file an appeal, the Agency point of contact for MSPB correspondence is:
Mr. Steven Weiss
Assistant General Counsel
Washington Headquarters Services &
Pentagon Force Protection Agency
1155 Defense Pentagon
Room 2E1035
Washington, DC 20301-1155
Phone: (703) 693-7374
Page 6 of 8
WARNING:
This document requires protection and safeguarding because it may be subject to the Privacy Act of 1974.

Pleading Number: 2016009558

Submission date : 2016-02-29 09:32:46

Confirmation Number: 772200024

Tab 4b
page 18 of 148

Fax:(703) 697-1068
E-mail: steven.i.weiss2.civ@mail.mil

If you believe this personnel action was taken in retaliation for your alleged protected
Whistleblowing activities under 5 U.S.C. § 2302(b)(8), you may file a complaint with the Office
of Special Counsel (OSC) under 5 U.S.C. § 1214 which may be followed by an Individual Right
of Action appeal filed with the MSPB under 5 U.S.C. § 1221.
You may obtain a copy of the MSPB rules and regulations and appeal form at
www.mspb.gov. You may obtain a copy of the OCS’s rules and regulations and appeal form at
www.osc.gov.
If you believe this action is based on unlawful discrimination, consistent with the
provisions of 29 C.F.R. Part 1614, you have the right to file a complaint with your organization's
EEO office. WHS's EEO office is the Office of Equal Employment Opportunity and Diversity,
29 CRF
4800 Mark Center Drive, Suite 03G19, Alexandria, Virginia, 571-372-0832.
1614.302(b) states that you may file a mixed case complaint with the agency's EEO office
pursuant to 29 CFR Part 1614, or a mixed case appeal with the MSPB pursuant to 5CFR
1201.151, but not both. Since this action is one that may be appealed to the MSPB, you may
choose (instead of filing a complaint with the EEO office) to raise discrimination with the MSPB
as stated above, or under 29 C.F.R. 1614.302. The forum in which you file first (EEO or MSPB)
is considered your election to proceed in that forum.
If you have any questions about your rights or procedures discussed herein, contact
Carene Reid of the WHS, Human Resources Directorate (HRD), Labor and Management
Employee Relations Division, at (571) 372-4084 or carene.d.reid.ctr@mail.mil. Should you be
unable to access any of the foregoing rules or regulations via the above websites, please contact
Ms. Reid for assistance in obtaining a paper copy.
If you have questions regarding the effect of your separation on your federal benefits,
please contact Mr. Maurice Hubbard of the WHS, HRD, Benefits Division at (571) 372-4113 or
maurice.a. hubbard.civ@mail.mil.

Page 7 of 8
WARNING:
This document requires protection and safeguarding because it may be subject to the Privacy Act of 1974.

Pleading Number: 2016009558

Submission date : 2016-02-29 09:32:46

Confirmation Number: 772200024

Tab 4b
page 19 of 148

You are asked to sign and date the Acknowledge Receipt copy of this memorandum. By
doing so, you will not forfeit any of the rights mentioned herein. Your signature does not indicate
your agreement or disagreement with this action. Your failure to sign will not void the content of
the memorandum. However, since you have been on Administrative Leave since August 28,
2015, this memorandum is being mailed via USPS certified and regular mail, and the postal
delivery receipt will be hereby used as acknowledgment of such receipt.

Jerry H. Russell
Deputy Chief, Business Resource Center
Joint Service Provider, formerly Enterprise IT Services Directorate
Washington Headquarters Services

Acknowledge Receipt:

Signature

Date

References:
a. Notice of Proposed Removal, dated October 27, 2015 and Proof of Delivery Receipt
b. Requests for Extension, dated November 13, November 18, 2015 and December 11,
2015 with agency response
c. Elizabeth Aviles-Wynkoop Email Re: Oral Reply, dated December 14, 2015
d. Elizabeth Aviles-Wynkoop’s Written Reply, dated December 14, 2015

Page 8 of 8
WARNING:
This document requires protection and safeguarding because it may be subject to the Privacy Act of 1974.

Pleading Number: 2016009558

Submission date : 2016-02-29 09:32:46

Confirmation Number: 772200024

Tab 4b
page 20 of 148

VII. INDEX TO APPENDICES

APPENDIX C

f
(

t
?

Aviles-Wynkoop, Elizabeth CIV WHS EITSD (US) <elizabethMl^r20l5,
1:05 PM
wynkoop.civ@mail.mil>
to me

—Original Message—

ipggj

V

as

Subject: FW: Remarks made against me, Elizabeth Aviles-Wynkoop at JITSPP

I'm here to serve the mission of the NEW JITSPP and to advise, you and Carol, that no
laws, are being broken, per the Federal Acguisition Regulation (FAR).
In the future, if there are any issues, I hope, we can address, the issues, first, face to
face and not, by contacting, Labor Relations.

i

J
•%
3

I'm an adult and I know my job. I would like, to be treated as a professional and I don't
have time to play games.

I

■if

mmi,

„s.aveiv©Ui5_ _

■'MID!

I hope this issue is null and void.
I await, what you need me to do, to assist you with our NEW JITSPP.

I

Thank you, for your time and attention, to this matter.
Elizabeth

IS

usj
S u 0,1

ill

ss

■T?3j?jse!Qsa3’ffi

i

!j/it

m

IMIM

Irlo

1 Q°ivVyv/1

°

%■:

i. ';•>->•

•V

: . . .4

BagBBKB

wmmmmmrn

7H3Z1

ji®j|

■EL
ii

mm

tm

superyisorMQ,;giSGjUSSiissi!ieSgraisea;

ra

v,

ifrUWHil!,..
rPL*Aly4^ailii

I4
f

Original Message

sis

S3

ih

Subject: RE: Remarks made against me, Elizabeth Aviles-Wynkoop at JITSPP
Importance: High

;

ii
•!
"i

Jerry, when you get a moment, if you can clarify Carol's remarks below, that you and
her, did, meet with Labor Relations, regarding concerns that I addressed in my email
last night?

Hwaair

•«.-

s

J

m

s

.S3*B3glRffet

ratesirais

ra

.4
,s..i

■ ijV--...

_'L.

r.‘.

>.*.

I await your response.
Thanks!
Elizabeth
r

—Original Message—
From: Ensley, Carol A CIV WHS EITSD (US)
Sent: Friday, August 14, 2015 11:00 AM
To: Aviles-Wynkoop, Elizabeth CIV WHS EITSD (US); Russell, Jerry H Jr CIV (US)
Subject: RE: Remarks made against me, Elizabeth Aviles-Wynkoop at JITSPP
Thank you Elizabeth for letting me know your concerns.
Jerry and I met with Labor Relations as a team yesterday.
I did write the Observations without Jerry's input.
I will contact LMER and discuss the way forward with regard to the documentation
provided yesterday.
*

VR

i

1
Carol A. Ensley
Chief, Acquisition Management, WHS-EITSD
Joint IT Service Provider-Pentagon
703-697-8599
carol.a.enslev.civ@mail.mil

%
%
;■

.....Original Message—

—■ay™
Subject: RE: Remarks made against me, Elizabeth Aviles-Wynkoop at JITSPP
Importance: High
r

Carol,
I spoke to Jerry this morning and he said, that he didn't tell you, to contact Labor
Relations.
I want an apology, from you in writing and I also, want in writing, that ALL
documents/paperwork, regarding the below issues, have been shredded, removed from

r

l

&

.'.’I.. .

JCr.'-V.:.

.

..

a

....

A.V ’.*.

your computer, Labor Relations computer and destroyed, on the incidents, that you
listed below, that were issues and concerns, to you.
I want in writing from you, that no further action or concerns are present.

mm,

elmel

I await the above in writing, to ensure, that I DON'T, need, to be worrying about Labor
Relations.
Thank you for your time and attention to this matter.
Elizabeth

Original Message
—

To: Aviles-Wynkoop; Elizabeth CIV WHS EITSD (US); Russell, Jerry H Jr CIV (US)
Subject: RE: Remarks made against me, Elizabeth Aviles-Wynkoop at JITSPP

i!

Si
lRPiQ-fD. .

k'WpJWiT-Tj;j

m

•:
ii

Chief, Acquisition Management, WHS-EITSD
Joint IT Service Provider-Pentagon
703-697-8599
carol.a.enslev.civ@mail.mil
i

e

i
i

i

h

;

VII. INDEX TO APPENDICES

APPENDIX D

UNITED STATES OF AMERICA
MERIT SYSTEMS PROTECTION BOARD

ELIZABETH AVILES-WYNKOOP,
Appellant,

DOCKET NUMBER
DC-315 H-16-0327-1-1

v.
DEPARTMENT OF DEFENSE,
Agency.

DATE: September 14, 2016

THIS ORDER IS NONPRECEDENTIAL
Nate Nelson, Petersburg, Virginia, for the appellant.
Jenifer J. Schall, Esquire, and Kevin Greenfield. Washington, D.C., for the
agency.
BEFORE
Susan Tsui Grundmann, Chairman
Mark A. Robbins, Member

REMAND ORDER
The appellant has filed a petition for review of the initial decision, which
dismissed her termination appeal for lack of jurisdiction,

For the reasons

discussed below, we GRANT the appellant’s petition for review, VACATE the

i

A nonprecedential order is one that the Board has determined does not add
significantly to the body of MSPB case law. Parties may cite nonprecedential orders,
but such orders have no precedential value; the Board and administrative judges are not
required to follow or distinguish them in any future decisions,
In contrast, a
precedential decision issued as an Opinion and Order has been identified by the Board
as significantly contributing to the Board’s case law. See 5 C.F.R. § 1201.1 1 7(c).

2

initial decision, and REMAND the case to the Washington Regional Office for
further adjudication in accordance with this Order.

BACKGROUND
On February 3, 2016, the appellant, a GS-13 Program Analyst in the
competitive service, filed an appeal of her termination and requested a hearing.
Initial Appeal File (IAF) Tab 1, Tab 5 at 12.

She alleged that the agency

improperly considered her to be a probationary employee, but that she was
reinstated to the position under 5 C.F.R. § 315.401, and had previously completed
a probationary period. IAF, Tab 1 at 3. The administrative judge set forth the
law applicable to the question of Board jurisdiction over a probationary
termination and ordered the appellant to file evidence and argument showing that
the appeal was within the Board’s jurisdiction. IAF, Tab 2. The agency moved to
dismiss the appeal, arguing that the appellant was serving in a probationary
period despite her prior Federal service and that the Board did not have
jurisdiction over the appeal. IAF, Tab 5 at 4-9. The appellant responded to the
agency’s motion. IAF, Tab 11.
After considering the pleadings, the administrative judge dismissed the
appeal for lack of jurisdiction, finding that the appellant was a probationary
employee who did not have 1 year of current continuous service, and did not have
any other service that could be “tacked” to her probationary period. IAF, Tab 12,
Initial Decision (ID),

The administrative judge did not hold the appellant’s

requested hearing on the jurisdictional issue.
The appellant has filed a petition for review of the initial decision. Petition
for Review (PFR) File, Tab 1. She reiterates her assertions made below that she
was reinstated to her position, had previously completed a probationary period,
and, therefore, met the definition of employee under 5 U.S.C. $ 751 l(a)(l)(A)(i)
because she was not serving a probationary period under an initial appointment at
the time of her termination. Id. at 3-5. The agency has responded to the petition
for review. PFR File, Tab 4.

3
DISCUSSION OF ARGUMENTS ON REVIEW
The Board’s jurisdiction is limited to those matters over which it has been
given jurisdiction by law, rule, or regulation.

Maddox v. Merit Systems

Protection Board, 759 F.2d 9, 10 (Fed. Cir. 1985). Whether an individual in the
competitive service has the right to appeal an adverse action depends on whether
she is an “employee” under 5 U.S.C. $ 7511(a)(1)(A).
the Army, 119 M.S.P.R. 391. 1 5 (2013).

Walker v. Department of

5 U.S.C. § 7511(a)(1)(A) defines an

employee as an individual in the competitive service who (i) is not serving a
probationary period under an initial appointment, or (ii) who has completed
1 year of current continuous service under other than a temporary appointment
limited to 1 year or less. 5 U.S.C. § 7511(a)(1)(A). In an adverse action appeal,
an appellant is entitled to a hearing on jurisdiction if she makes a nonfrivolous
claim of Board jurisdiction, at which she must prove jurisdiction by preponderant
evidence.

Garcia v. Department of Homeland Security, 437 F.3d 1322, 1344

(Fed. Cir. 2006) (en banc). Nonfrivolous allegations are allegations of fact that,
if proven, could establish that the Board has jurisdiction over the matter at issue.
Walker, 119 M.S.P.R. 391. | 6 n.2.
The administrative judge correctly found that the appellant was not an
“employee” under 5 U.S.C. § 751 l(a)(T)(A)(ii).
The administrative judge correctly found that the appellant does not meet
the definition of employee under 5 U.S.C. § 751 l(a)(l)(A)(ii) because she lacked
1 year of current continuous service.

ID at 4-5.

“Current continuous service”

means “a period of employment or service immediately preceding an adverse
action without a break in Federal civilian employment of a workday.” Ellefson v.
Department of the Army, 98 M.S.P.R. 191, f 14 (2005). The appellant resigned
from her immediately previous Federal position, with the Department of Housing
& Urban Development, effective September 30, 2014, and thus had a 9-month
break in service prior to her June 29, 2015 appointment with the agency.
Tab 5 at 82, 112.

IAF,

Therefore, the administrative judge correctly found that the

4
appellant did not meet the definition of an employee under 5

U.S.C.

§-75,1 l(a)(i)(A)(ii).
The appellant has raised a nonfrivolous allegation that she was an employee
under 5 U.S.C. $ 751 UaRlRAim.
An agency may appoint by reinstatement to a competitive-service position
an individual who previously was employed under a career or career-conditional
appointment. 5 C.F.R. § 315.401(a). Under 5 C.F.R. $ 315.801. the first year of
service of an employee who is given a career or career-conditional appointment in
the competitive service is a probationary period when, among other things, the
employee was reinstated under subpart D (5 C.F.R. $ 315.401), unless during any
period of service that affords a current basis for reinstatement, the employee
completed a probationary period or served with competitive status under an
appointment that did not require a probationary period. In other words, when an
agency appoints an individual using reinstatement authority, the individual must
serve a probationary period unless during any prior service that forms the current
basis for the reinstatement, the individual completed probation or did not have to
serve a probationary period. 5 C.F.R. §§ 315.401, 801(a).
The parties do not contest that the appellant was appointed to her position
by reinstatement.

PFR File, Tab 1 at 4, Tab 4 at 4.

The Standard Form 50

(SF-50) documenting her appointment reflects that she was appointed by
reinstatement under 5 C.F.R. $ 315.401. IAF, Tab 5 at 83. Although “the SF-50
is not a legally operative document controlling on its face an employee’s status
and rights,” it still can be considered as evidence when determining the nature of
an action.
1984).

Grigsby v. Department of Commerce, 729 F.2d 772. 776 (Fed. Cir.

In sum, because the parties agree that the appellant was appointed by

reinstatement and the record supports that conclusion, she is subject to the
regulations at 5 C.F.R. § 315.801(a)(2) regarding probationary periods for
individuals appointed through reinstatement.

5
The appellant argues on review, as she did below, that she previously
completed a probationary period during a period affording a current basis for her
reinstatement and, therefore, under 5 C.F.R. §§ 315.401 and 315.801(a)(2), she
was not required to serve a probationary period with the agency. PFR File, Tab 1
at 4-5; IAF, Tab 1 at 4. The administrative judge did not address this argument,
instead conducting an analysis under 5 C.F.R. § 315.802(b) to determine if the
appellant’s prior service could be “tacked” to her more recent agency service to
find that she completed her current probationary period for jurisdictional
purposes. ID at 4.

However, any “tacking” analysis would be irrelevant if the

appellant was not required to serve a probationary period with the agency because
she completed a probationary period during a period affording a current basis for
her reinstatement.
The Board addressed a situation similar to that presented by this appeal in
Abdullah v. Department of the Treasury, 113 M.S.P.R. 99 (2009). The agency in
that appeal terminated the appellant during what it believed was his probationary
period, but the Board noted that the appellant might have been appointed to his
position through reinstatement and, if that were the case and he met the criteria
of 5 C.F.R. $ 315.802(a)(2). then he met the statutory definition of an employee.
Id.,

11-13. Because the record had not been developed regarding these issues,

the Board in Abdullah remanded the appeal to further develop the record.

2

/</.,! 14.
Here, the record is also not adequately developed to address the appellant’s
arguments. Therefore, we remand this appeal to the administrative judge to take
2 The agency argues that this appeal is controlled by the U.S. Court of Appeals for the
Federal Circuit’s decision in Shelton v. Department of the Air Force, 382 F.3d 1335
(Fed. Cir. 2004). We have considered the decision and find it inapposite. Unlike the
case at bar, in Shelton there is no suggestion that the appellant was reinstated under the
authority of 5 C.F.R. § 3 1 5.401. Although the court used the term “reinstatement” to
describe the rehiring of the appellant to the same position 13 years after he departed, it
appears that the court used the word in its common meaning and not as a term of art as
used in the regulation.

6
additional evidence and argument regarding the nature of the appellant’s
appointment with the agency, what prior appointment(s) served as a basis for the
appellant’s reinstatement, and whether she completed a probationary period
during the appointment(s). The administrative judge shall afford the appellant a
hearing on these jurisdictional issues.
ORDER
For the reasons discussed above, we remand this case to the Washington
Regional Office for further adjudication in accordance with this Remand Order.

FOR THE BOARD:
Jennifer Everling
Acting Clerk of the Board
Washington, D.C.

\

VII. INDEX TO APPENDICES

APPENDIX E

I

UNITED STATES OF AMERICA
MERIT SYSTEMS PROTECTION BOARD
WASHINGTON REGIONAL OFFICE

ELIZABETH AVILES-WYNKOOP,
Appellant,

DOCKET NUMBER
DC-315H-16-0327-B-1

v.
DEPARTMENT OF DEFENSE,
Agency.

DATE: September 26, 2016

ORDER AND NOTICE OF JURISDICTIONAL HEARING, STATUS
CONFERENCE, AND PREHEARING CONFERENCE
The jurisdictional hearing in this appeal will be held:
Date:

December 9, 2016

Time:

9:00 a.m.

Location:

U.S. Merit Systems Protection Board
1901 South Bell Street, Suite 950
Arlington, VA 22202-4802

If the appellant fails to appear without good cause, the appeal will be
decided without a hearing.

If the agency representative fails to appear, the

hearing will, absent extraordinary circumstances, proceed as scheduled.
STATUS CONFERENCE
I will conduct a telephonic status conference on October 5, 2016, at 3:00
p.m. The parties must be familiar with the facts and issues of the appeal and be
prepared to discuss them. To join the conference, you must call 1-800-793-9878,
and at the prompt enter Participant Code 1234124. During the conference, I will
address discovery procedures and review settlement efforts.

2
NOTE:

Since I will discuss settlement options during this conference,

representatives must have the authority to settle this appeal or be able to reach the
person with that authority on short notice.

We may include that person in the

conference discussions if I deem it necessary.
PREHEARING SUBMISSIONS
I ORDER the agency and the appellant to file the following to be received
in this office on or before November 23, 2016:
(1)

A statement of facts and issues (the appellant must include any
and all defenses);

(2)

A list of all agreed upon material facts;

(3)

A list of witnesses with a detailed summary of the expected
testimony of each witness showing that the testimony will tend
to prove or disprove a fact significant to the case. Testimony
that is irrelevant, immaterial, or unduly repetitious will be
excluded.

See 5 C.F.R. § 1201.41 (b)( 10).

The summary

should include each witness’s first and last name, job title and
work location if the witness is a federal employee, and
relationship to the appellant and the facts at issue; and
(4)

A copy of exhibits accompanied by an index identifying the
documents. You must separately mark for identification every
document in the lower right hand corner. The appellant must
mark exhibits by letter, the agency by number. Each exhibit
exceeding 10 pages in length must be paginated. Documents
previously submitted to the Board by either party are already a
part of the record and are not to be offered as exhibits.

No

binders or notebooks will be accepted.
NOTE: In presenting evidence at the hearing, you will be limited by your
prehearing submissions, except for good cause shown. For example, an unlisted

3
witness will usually not be permitted to testify, and hearing exhibits that were not
reviewed during the prehearing conference will usually not be accepted into the
record.
WITNESSES
The agency must provide for the appearance of its employees who are
approved as witnesses; thus no subpoenas for them are necessary. If necessary, I
will assist you in arranging for the appearance of employees of any other Federal
agency or individuals not employed by the federal government. This assistance
may include ordering an agency to make the witness available or issuing a
subpoena. To be timely, a motion for subpoena must be received in this office on
or before November 23, 2016.

The requesting party is responsible for serving

the subpoena and for paying appropriate witness fees.
COMMUNICATIONS DURING HEARING
Absent express approval from the administrative judge, no two-way
communications devices may be operated and/or powered on in the hearing room;
all cell phones, text devices, and all other two-way communications devices shall
be powered off in the hearing room. Further, no cameras, recording devices,
and/or transmitting devices may be operated, operational, and/or powered on in
the hearing room. If the hearing is being held by telephone, the same rules apply,
modified as appropriate to the circumstances. Failure to abide by these rules may
result in the imposition of sanctions, up to and including removal of the offending
individual from the hearing room or stopping the hearing.

See 5 C.F.R.

§ 1201.43.
PREHEARING CONFERENCE
I will conduct a telephonic prehearing conference on November 30, 2016.
at 10:00 a.m.

Witness requests and hearing exhibits will be reviewed in detail

and the facts and issues of the appeal that will be addressed at the hearing will be
discussed. Unless otherwise specified, all discovery efforts will terminate on this

4

date.

The parties must be prepared, as appropriate, to discuss settlement, to

define the issues, and to reach stipulations of uncontested facts,

To join the

conference, you must call 1-800-793-9878, and at the prompt enter Participant
Code 1234124.
NOTE:

Since I will discuss settlement options during this conference,

representatives must have the authority to settle this appeal or be able to reach the
person with that authority on short notice. We may include that person in the
conference discussions if I deem it necessary.

FOR THE BOARD:

/S/
Andrew M. Dunnaville
Administrative Judge

CERTIFICATE OF SERVICE
I certify that the attached Document(s) was (were) sent as indicated this
day to each of the following:
Appellant
U.S. Mail

Elizabeth Aviles-Wynkoop
753 B Delaware Avenue SW
Washington, DC 20024
Appellant Representative

U.S. Mail

Nate Nelson
1709 Halcun Drive
Petersburg, VA 23803
Agency Representative

Electronic Mail

Jenifer J. Schall, Esq.
Department of Defense
WHS & PFPA Office of General Counsel
1155 Defense Pentagon (Pentagon Rm. 2E1035)
Washington, DC 20301-1 155

Electronic Mail

Mr. Kevin Greenfield
Department of Defense
WHS/OGC
1155 Defense Pentagon, Rm. 2E1035
Washington, DC 20301

September 26, 2016
(Date)

/s/

Tonya Holman
Paralegal Specialist

VII. INDEX TO APPENDICES

APPENDIX F

UNITED STATES OF AMERICA
MERIT SYSTEMS PROTECTION BOARD
WASHINGTON REGIONAL OFFICE

ELIZABETH AVILES-WYNKOOP,
Appellant,

DOCKET NUMBER
DC-315H-16-03 27-B-l

v.
DEPARTMENT OF DEFENSE,
Agency.

DATE: January 12, 2017

ORDER FINDING JURISDICTION
On February 3, 2016, the appellant filed an appeal of the agency’s action
terminating her from her position with the Department of Defense Washington
Headquarters Services (WHS or agency). Appeal File (AF), Aviles-Wynkoop v.
Department of Defense, DC-315H-16-0327-I-1

(AF-I-1), Tab

1.

For the

following reasons, I find that the appellant has established Board jurisdiction
over her appeal.

BACKGROUND
On June 29, 2015, the appellant was appointed to a Program Analyst, GS0343-13 position at the Pentagon in Arlington, Virginia. AF-I-1, Tab 5 at 85.
The appellant received a career conditional appointment by reinstatement. Id.
See 5 C.F.R. § 315.402.
On October 27, 2015, the appellant was given notice that she would be
terminated during her probationary period. AF-I-1, Tab 5 at 52. The notice
stated that the appellant was being terminated for several reasons, including
inappropriate conduct and discourteous behavior. Id. at 54-56. The appellant was
terminated effective January 4, 2016. Id. at 13-20. The appellant filed the an

2
appeal with the Merit Systems Protection Board (Board) on February 3, 2016.
AF-I-1, Tab 1.
An Initial Decision was issued on March 24, 2016. AF-I-1, Tab 12. The
appellant subsequently filed a Petition for Review. AF-I-2, Tab 1. On September
14, 2016, the Board issued a Remand Order finding that the appellant raised a
nonfrivolous allegation that she was appointed by reinstatement and was an
employee under 5 U.S.C. § 7511 (a)(I)(A)(i), and therefore was entitled to a
jurisdictional hearing. Id. The Board remanded the appeal to determine whether
the appellant previously completed a probationary period during a period
affording a current basis for her reinstatement.

Id.

The appellant waived her

right to a jurisdictional hearing, and a close of record conference was held on
December 19, 2016. AF-B-1, Tab 10.

ANALYSIS AND FINDING
The Board's jurisdiction is not plenary. It is limited to those matters over
which it has been given jurisdiction by law, rule or regulation. Maddox v. Merit
Systems Protection Board, 759 F.2d 9, 10 (Fed. Cir. 1985). It is well-established
that the Board does not have jurisdiction over all actions that are alleged to be
incorrect, and that the appellant has the burden of proving that the Board has
jurisdiction over his appeal.

See 5.C.F.R. § 1201.56(a)(2).

See also Marren

v. Department of Justice, 49 M.S.P.R. 45, 51 (1991). Whether the Board has
appellate jurisdiction by statute in a termination or other adverse action depends
on whether the appellant is a Federal employee as defined by 5 U.S.C.
§ 7511(a)(1).

5 U.S.C. § 7511(a)(1)(A) defines an employee as an individual in

the competitive service who (i) is not serving a probationary period under an
initial appointment, or (ii) who has completed 1 year of current continuous
service under other than a temporary appointment limited to 1 year or less. 5
U.S.C. § 7511(a)(1)(A).

3

An agency may appoint by reinstatement to a competitive-service position
an individual who previously was employed under a career or career-conditional
appointment. 5 C.F.R. § 315.401(a). Under 5 C.F.R. § 315.801, the first year of
service of an employee who is given a career or career-conditional appointment in
the competitive service is a probationary period when, among other things, the
employee was reinstated under subpart D (5 C.F.R. § 315.401), unless during any
period of service that affords a current basis for reinstatement, the employee
completed a probationary period or served with competitive status under an
appointment that did not require a probationary period. In other words, when an
agency appoints an individual using reinstatement authority, the individual must
serve a probationary period unless during any prior service that forms the current
basis for the reinstatement, the individual completed probation or did not have to
serve a probationary period. 5 C.F.R. §§ 315.401, 801(a).
In this case, the parties do not contest that the appellant was appointed to
her position by reinstatement. See AF-B-1, Tab 1. The appellant’s Form SF-50,
Notification of Personnel Action, indicates that she was reinstated pursuant to 5
C.F.R. § 315.401. AF-B-1, Tab 9 at 18 - 20.
The

appellant

produced

evidence to

demonstrate

that

her

initial

appointment into Federal service was in 1982, and that she completed her service
requirement for career tenure in 1985. See AF-B-1, Tabs 12, 13. In addition, the
appellant produced evidence demonstrating that she worked as permanent,
competitive service employee for the National Park Service in 2003, and held a
i

permanent, competitive service position with the Department of Housing and
Urban Development as recently as 2014. See AF, Tab 13.
The agency has argued that the appellant was required to serve a new
probationary period with the agency in accordance with 5 C.F.R. §§ 315.401 and
801(a). According to the agency, because the appellant’s initial position with the
Federal government was not with the Department of Defense, and because she
never previously held the position as a GS-043 Program Analyst, she is required

4

to complete a second probationary period.

AF, Tab 11 at 5.

5 C.F.R. §

315.802(b) states that prior Federal civil service counts towards completion of
probation when the prior service is in the same agency, and in the same line of
work. Flowever, I find that this analysis is irrelevant as the appellant was hired
through reinstatement and completed a probationary period during a period
affording a current basis for her reinstatement. Accordingly, the appellant has
established Board jurisdiction in her appeal.

FOR THE BOARD:

/S/
Andrew M. Dunnaville
Administrative Judge

CERTIFICATE OF SERVICE
I certify that the attached Document(s) was (were) sent as indicated this
day to each of the following:
Appellant
U.S. Mail

Elizabeth Aviles-Wynkoop
753 B Delaware Avenue SW
Washington, DC 20024
Appellant Representative

U.S. Mail

Nate Nelson
1709 Halcun Drive
Petersburg, VA 23803
Agency Representative

Electronic Mail

Elizabeth E. Pavlick, Esq.
Department of Defense
Assistant General Counsel
Pentagon Force Protection Agency
1155 Defense Pentagon
Rm. 2E1035
Washington, DC 20301

January 12, 2017
(Date)

/s/
Latisha Clinton
Paralegal Specialist

VII. INDEX TO APPENDICES

APPENDIX G

I, Carol A. Ensley, formerly Division Chief Acquisition Management, Washington Headquarters
Services (WHS), Enterprise IT Standard Support Services (EITSD), Joint IT Service ProviderPentagon (JSP), Department of Defense (DoD), hereby swear or affirm that the following
statement is true and correct.
I held the position of Division Chief Acquisition Management, WHS, EITSD/JSP for two years,
from 2014 until November of 2016. Per JSP leadership restructuring, I currently hold another
position within JSP. I have 29 years of Federal service; supporting Pentagon/NCR Information
Technology services the entire time. I have over 12 years of non-congruous supervisory
experience; this includes supervisory experience with the Air Force, Army, OSD/AT&L, and
OSD/WHS.
Mr. Russell and I were on the hiring panel that selected Ms. Aviles-Wynkoop for the Program
Analyst position at EITSD in June of 2015. Ms. Aviles-Wynkoop was a strong candidate; she had
many certifications related to the position. During the interview, Mr. Russell introduced me as
the supervisor for the vacant position for which Ms. Aviles-Wynkoop was applying. Ms. AvilesWynkoop did not object to me being her supervisor during her interview.
Based on the hiring panel's recommendations, Ms. Aviles-Wynkoop was offered and accepted
the Program Analyst position at EITSD/JSP, and she began work on June 29, 2015.
Shortly after she came on board, I took Ms. Aviles-Wynkoop to meetings with other EiTSD/JSP
personnel and with members of WHS's Acquisition Directorate. As Ms. Aviles-Wynkoop's
supervisor, I introduced her at these meetings. She never expressed any concerns or objections.
I also certified Ms. Aviles-Wynkoop's time cards and approved her leave. Ms. Aviles-Wynkoop
did not object to me being her supervisor at that time.
Ms. Aviles-Wynkoop objected to me being her supervisor in an email sent on approximately
August 26,2015.1 do not know what prompted Ms. Aviles-Wynkoop to reject me as her
supervisor. After August 26, 2015, Ms. Aviles-Wynkoop refused to take supervisory direction
from me. I still continued to certify her timecards, as her supervisor.
Ms. Aviles-Wynkoop displayed a cantankerous attitude. Her office mates complained that she
treated them in an abusive manner. When she talked to me and to others, she was abrasive
and loud. She interrupted others, talked over others, and entered others' personal space when
she disagreed with them. This behavior became physically threatening to staff members. Ms.
Aviles-Wynkoop created a volatile and toxic work environment that made coworkers and
customers very uncomfortable. Some of the employees and contractors feared that she may
become violent because she quickly became angry and unpredictable. She was pushy,
aggressive and she could not see anyone else's point of view. She appeared to believe that if
she yelled louder than anyone else, that made her right. She was so forcefully convinced that
she was absolutely right about everything, that anyone who disagreed with her was
immediately discounted. After an incident with a contractor employee, she threatened twice
to call the Pentagon Force Protection Agency police if she did not get her way.

Pleading Number: 2017011362

Submission date : 2017-03-17 15:36:21

Confirmation Number: 2041198969

page 32 of 95

One of my employees, who is former military and suffers from a combat related disability, came
to see me in confidence in approximately July or August of 2015 because he was completely
distraught. He said that he was extremely disturbed by Ms. Aviles-Wynkoop's behavior in the
workplace and that she was aggravating his combat related disability. He said that if he was
forced to interact with her further, he was worried that it might seriously impact his health and
welfare.
Several emails are provided to demonstrate the stress and confusion created by Ms. AvilesWynkoop's actions. In an email dated August 24, 2015 from Michael Gruden of the WHS
Acquisition Directorate, he informs of a conflict between Ms. Aviles-Wynkoop, Mr. Gruden's
staff, and the contractor. This email is a good example of the complaints I received from
coworkers, contractors and customers related to Ms. Aviles-Wynkoop's inappropriate and
destructive workplace behavior. In another email dated September 3, 2015, my staff expressed
concerns that Ms. Aviles-Wynkoop would be returning to the office after her administrative
leave.
The tension and fear caused by Ms. Aviles-Wynkoop finally became so serious and traumatizing
to staff, that I made the decision to place Ms. Aviles-Wynkoop on paid administrative leave per
coordination with WHS/HRD. We needed to remove her to reestablish control and create a
safe, non-threatening work environment. On August 28,2015, the date designated for me to
give her the administrative leave letter, Jerry Russell made sure that no one else would be in
the office except for me and Ms. Aviles-Wynkoop. I was left alone in the office to provide Ms.
Aviles-Wynkoop with the letter. 1 was afraid to give Ms. Aviles-Wynkoop the administrative
leave letter if I had to be alone with her. I not only feared for my physical safety, but I also
wanted to make sure that if Ms. Aviles-Wynkoop exploded and had a medical emergency that
someone trained to help would be present to call for medical assistance. Ms. Aviles-Wynkoop
had a habit of getting very worked up during her numerous disagreements and altercations. I
was fearful that she would have a heart attack or some other medical emergency. Mr. Victor
Shirley and I contacted the Pentagon Force Protection Agency Police Directorate. We asked that
two police officers be sent to accompany me as I handed Ms. Aviles-Wynkoop the
administrative leave letter. When I finally presented Ms. Aviles-Wynkoop with the
administrative leave letter, with the two police officers standing behind me, she refused to sign
the letter as requested; she did not have a visible reaction or suffer from a medical emergency.
Ms Aviles-Wynkoop took the letter with instructions. Once Ms. Aviles-Wynkoop was escorted
out of the office on administrative leave, I relaxed. I could also feel that the rest of the office
relaxed, too. There was a collective sigh of relief in the office once she was gone.
After August 28, 2015, when I placed Ms. Aviles-Wynkoop on paid administrative leave, she
never came back to the office.
I was the Proposing Official for the removal of Ms. Elizabeth Aviles-Wynkoop from the Federal
service. I proposed her removal in October of 2015. My supervisor, Jerry H. Russell, Deputy
Chief, Business Resource Center, EITSD/JSP, was the Deciding Official. Mr. Russell sustained the

Pleading Number: 2017011362

Submission date : 2017-03-17 15:36:21

Confirmation Number: 2041198969

page 33 of 95

charges In the proposal and upheld the penalty of removal. Ms. Avlles-Wynkoop remained on
paid administrative leave from August 28, 2015 until her removal from Federal service on
January 4, 2016.

Date:

Signed:

Pleading Number: 2017011362

Submission date : 2017-03-17 15:36:21

((o hAciy ±0(1

Confirmation Number: 2041198969

page 34 of 95

I, Jerry H. Russell, Chief, Business Resource Center, Joint Service Provider, formerly
Enterprise IT Services Directorate (EITSD), Washington Headquarters Services (WHS),
Department of Defense (DoD), hereby swear or affirm that the following statement is true and
correct:
I have held the position of Chief, Business Resource Center, Joint Service Provider (JSP),
formerly EITSD, since October of 2016. Before that, at the time of the removal action in
question, I was the Deputy Chief, Business Resource Center, EITSD. I have worked in WHS
since 2007 and for the Federal government for 15 years, since 2002.
I was the Deciding Official for the removal of Ms. Elizabeth Aviles-Wynkoop from the
Federal service, effective on January 4,2016. My subordinate, Carol A. Ensley, Chief,
Acquisition Management, WHS, EITSD/JSP, was the Proposing Official.
I was the Chair of the hiring panel that selected Ms. Aviles-Wynkoop for the Program
Analyst position at EITSD in 2015. There were two additional members on the hiring panel,
including Ms. Ensley. During the panel’s interview of Ms. Aviles-Wynkoop, I informed her that
if she were to be hired into the Program Analyst position, her supervisor would be Ms. Ensley.
The consensus of the panel was to hire Ms. Aviles-Wynkoop because she had a technically
sound background in contracting and we thought she could fill in some of the technical gaps that
the EITSD team had at that time. Prior to coming to work for EITSD, Ms. Aviles-Wynkoop had
a break in service from the Federal government for approximately 9 months. From August 2011
- September 2014, Ms. Aviles-Wynkoop worked for the Department of Housing and Urban
Development (HUD). It is my understanding that she resigned from HUD, after which she had a
9-month break in service.
Ms. Aviles-Wynkoop began her employment with EITSD on June 29, 2015. On her first
day in the office, I again instructed Ms. Aviles-Wynkoop that Ms. Ensley was her supervisor. I
also took Ms. Aviles-Wynkoop around the office to meet her coworkers. When I introduced her
to her coworkers, I informed them that Ms. Aviles-Wynkoop’s supervisor was Ms. Ensley.
There is no doubt in my mind that Ms. Aviles-Wynkoop knew that Ms. Ensley was her
supervisor. Ms. Aviles-Wynkoop did not express any confusion regarding my instruction that
Ms. Ensley was her first-line supervisor at that time.
In fact, at all times during Ms. Aviles-Wynkoop’s very brief employment with EITSD,
Ms. Ensley was her first-line supervisor, and I was her second-line supervisor. I never told Ms.
Aviles-Wynkoop that I was her first-line supervisor and I never told Ms. Aviles-Wynkoop that
she did not have to take direction from Ms. Ensley. In fact, it was abundantly clear that Ms.
Aviles-Wynkoop had to take direction from Ms. Ensley because Ms. Ensley was her first-line
supervisor. Ms. Ensley is a very good supervisor and has been able to get along with all of her
subordinates, except for Ms. Aviles-Wynkoop. Ms. Ensley patiently tried to work with Ms.
Aviles-Wynkoop to channel her negative energy into good work. Unfortunately, Ms. AvilesWynkoop continued to cause problems in EITSD with her negative energy.
Immediately after we hired Ms. Aviles-Wynkoop on June 29, 2015, she developed
profoundly hostile and antagonistic relationships with her supervisor, co-workers and customers.
1
Affidavit of Jerry Russell & Attachment
Page 1 of 20
Pleading Number: 2017011362

Submission date : 2017-03-17 15:36:21

Confirmation Number: 2041198969

page 45 of 95

I believe that she created disruptive working conditions for the employees in our organization.
So much so, that as described below, Ms. Ensley barred Ms. Aviles-Wynkoop from the
workplace on August 28, 2015 and placed her on paid administrative leave because of the
disruptions to Agency operations caused by Ms. Aviles-Wynkoop’s behavior. By creating a
disruptive and antagonistic work environment within her organization, Ms. Aviles-Wynkoop
alienated virtually everyone. She alienated her supervisor when she refused to recognize Ms.
Ensley's supervisory authority and was insubordinate to her. She alienated her fellow Federal
employee coworkers, contractors with whom it was her job to work and our organization's
management by engaging in misconduct and discourteous behavior. She is a bully. In one
discourteous email exchange she had with a contract specialist in the WHS Acquisition
Directorate, she challenged the contract specialist's experience, The contract specialist became
upset and referred to Ms. Aviles-Wynkoop as "unprofessional and aggressive." Ms. AvilesWynkoop referred to her coworkers negatively and described them to management as
"unprofessional, crooked, and unethical." Several of Ms. Aviles-Wynkoop’s coworkers
submitted complaints against her for her divisive workplace behavior. Ms. Ensley counseled Ms.
Aviles-Wynkoop on the proper procedures and protocols for engaging her chain of command.
Nevertheless, Ms. Aviles-Wynkoop engaged in communications of "negative comments and /or
demands by writing negative and inflammatory emails to senior EITSD staff (at the SES level);
despite being counseled on the proper procedures and protocol of the chain of command." Ms.
Aviles-Wynkoop’s misconduct and negative behavior were so frequently repeated that I believe
her misconduct was intentional.
Employees were so distraught by Ms. Aviles-Wynkoop’s behavior in the office that they
informed me they were afraid to come into the office and they did not want to come to work.
The August 2015 time period was shortly after the shooting at the Navy Yare and employees in
EITSD stated that they were afraid that violence could also erupt in EITSD because of Ms.
Aviles-Wynkoop. I received complaints from at least four Federal employees and two
contractors about Ms. Aviles-Wynkoop. They all said that she was disrespectful and volatile.
They told me that I needed to take action to remove her from the workplace before she became
physically violent.
Ms. Aviles-Wynkoop's misconduct was also related to her job; she was rude to both
customers and coworkers, which was especially egregious given the fact that she was in a
position of special trust as the COR in our organization. Ms. Aviles-Wynkoop’s misconduct
negatively affected her current ability to do her job and negatively affected my confidence in her
future ability to do her job. Her misconduct also negatively affected my confidence in her ability
to uphold the organization's mission. Ms. Aviles-Wynkoop was not under unusual job stress, she
was not provoked and she was not apologetic.
It is clear from the proposal notice and the materials relied upon to propose removal that
Ms. Aviles-Wynkoop did not get along with the people with whom she was required to work to
accomplish our organization’s mission, she acted inappropriately by bad-mouthing colleagues,
contractors and her supervisor, and she made inappropriate demands of her supervisor and the
leaders in our organization. Ms. Aviles-Wynkoop was unprofessional and overly aggressive.
Contractors sat in our EITSD space. Ms. Aviles-Wynkoop told them that they had to go and
should not be sitting near the Federal employees in EITSD. She came into my office one day,
2
Affidavit of Jerry Russell & Attachment
Page 2 of 20
Pleading Number: 2017011362

Submission date : 2017-03-17 15:36:21

Confirmation Number: 2041198969

page 46 of 95

pointing her finger at me, and stated, aggressively, that she expected me to move the contractor
employees out of the building because they should not be sitting with Federal employees. She
threatened that she would go to the Pentagon Force Protection Agency Police Directorate to have
the contractors physically removed from the office by police officers, if I did not do so.
Eventually, I felt that I had no choice but to move the contractors out of the building for their
own well-being because Ms. Aviles-Wynkoop was so rude and antagonistic toward them, until
such time as we could determine the way in which we were going to proceed with Ms. AvilesWynkoop’s employment. They were not working well with Ms. Aviles-Wynkoop and it was
most expedition to move them immediately so that there was no mission failure. Ms. AvilesWynkoop had a habit of telling everyone, including the contractor employees, how to do their
jobs. They did not want to work with her. She was also mde and bossy to her coworkers. She
challenged and talked down to them, telling them that their work was not correct. Ms. AvilesWynkoop was not good for EITSD’s image or morale.
On the day that Ms. Ensley was to present the paid Administrative Leave letter to Ms.
Aviles-Wynkoop, discussed below, I manufactured a meeting to take place downstairs, out of the
workplace, at the same time that Ms. Ensley was to present the letter to Ms. Aviles-Wynkoop.
Since employees had expressed concern to me that Ms. Aviles-Wynkoop could become violent, I
did not want them around when Ms. Ensley handed her a letter that could provoke her anger.
Ms. Ensley also did not want to be alone with Ms. Aviles-Wynkoop when she was given this
news, so Ms. Ensley enlisted the help of a Pentagon Force Protection Agency police officer to be
present with her when she presented the letter to Ms. Aviles-Wynkoop.
After Ms. Aviles-Wynkoop was out of the office on Administrative Leave, the whole
office visibly relaxed and we all became happier and more productive.
The most serious misconduct Ms. Aviles-Wynkoop engaged in that led to her removal
from Federal service, was her failure to recognize her supervisor. As stated above, from the first
day she began to work for EITSD, on June 29, 2015, Ms. Aviles-Wynkoop refused to recognize
Ms. Ensley as her supervisor. Ms. Aviles-Wynkoop also refused to take instruction or accept
work assignments from Ms. Ensley. Ms. Aviles-Wynkoop appeared to believe that she could
choose her own supervisor, choose what she wanted to work on and choose to ignore Ms. Ensley
and her supervisory direction. Against my specific instructions, Ms. Aviles-Wynkoop blind
copied me on all of her email correspondence with Ms. Ensley. She also blind copied her SES
chain of command. I asked her to stop doing that because Ms. Ensley was her supervisor and she
did not need to copy her entire chain of command, but Ms. Aviles-Wynkoop would not stop
doing so.
One day in August of 2015, Ms. Aviles-Wynkoop came to me and said that she wanted
me to be her supervisor instead of Ms. Ensley. I clearly told Ms. Aviles-Wynkoop that I was not
her supervisor; Ms. Ensley was her supervisor. Nevertheless, from that day forward, until she
was removed from Federal service, Ms. Aviles-Wynkoop refused to even recognize Ms. Ensley.
She did not talk to Ms. Ensley and she dropped Ms. Ensley from her emails. Ms. AvilesWynkoop began to send her emails only to me, as if I were her supervisor.

3
Affidavit of Jerry Russell & Attachment
Page 3 of 20
Pleading Number: 2017011362

Submission date : 2017-03-17 15:36:21

Confirmation Number: 2041198969

page 47 of 95

In that regard, the most serious incident of misconduct in which Ms. Aviles-Wynkoop
engaged occurred on August 26, 2015, a mere 59 calendar days or 42 business days after she
started to work at EITSD. On that day, Ms. Aviles-Wynkoop announced that she was leaving
work early. Ms. Ensley instructed Ms. Aviles-Wynkoop to inform as to her why Ms. AvilesWynkoop was leaving work early. As the supervisor, Ms. Ensley not only had a need to know
this information, she also had a duty to keep track of her employees. Instead of answering Ms.
Ensley's reasonable instruction, however, Ms. Aviles-Wynkoop improperly demanded (in an
email) that Ms. Ensley prove to Ms. Aviles-Wynkoop that she was her supervisor by submitting
to Ms. Aviles-Wynkoop a copy of Ms. Ensley's Standard Form (SF) 50 stating that Ms. Ensley
was Ms. Aviles-Wynkoop's supervisor. Only then would Ms. Aviles-Wynkoop deign to
respond to Ms. Ensley's legitimate question. (The name of Ms. Aviles-Wynkoop’s supervisor
would not be on an SF-50.) Ms. Aviles-Wynkoop wrote in an email to Ms. Ensley:
[Ms. Ensley], I requested to see your SF50 that you are my supervisor, which no
one has been able to furnish. I spoke to Jerry Russell and that's who I'm reporting
to. Thanks! [Ms. Aviles-Wynkoop],
See Agency File, Tab 4c, Ref f, page 126 of 148. At no time did I inform Ms. Aviles-Wynkoop
that she could report to me instead of Ms. Ensley.
This is blatant insubordination. Ms. Aviles-Wynkoop did not dispute the fact that she
failed to comply with her supervisor's instructions. In fact, she cannot dispute that fact because
her email is very clear and speaks for itself. That statement alone from Ms. Aviles-Wynkoop
cemented in my mind that removal was the only penalty I could sustain because there was
absolutely no potential for her rehabilitation and removing her from her position so obviously
promoted the efficiency of the service. In my 15 years as a supervisor in the Federal service, it
has been clear that a government employee, such as Ms. Aviles-Wynkoop, may not refuse to do
work merely because of disagreements with management or her disagreement with her superiors
as to the identity of her supervisor. The fact that Ms. Aviles-Wynkoop refused to recognize Ms.
Ensley as her supervisor also meant that she refused to take direction from and refused to do
work for Ms. Ensley. This is insubordination in its purest form. There was no excuse for Ms.
Aviles-Wynkoop to ignore the clear purpose of the workplace as a place for doing work. Ms.
Aviles-Wynkoop had no right to refuse to abide by legitimate supervisory authority, and her
continued refusal to recognize Ms. Ensley’s authority and to perform her assigned duties clearly
justified a personnel action. My choice of the appropriate penalty of removal was a matter of
agency discretion, and I chose to exercise that discretion given the serious nature of Ms. AvilesWynkoop’s misconduct.
Ms. Aviles-Wynkoop’s insubordination, alone, warranted removal from the Federal
service. Ms. Aviles-Wynkoop's failure to recognize Ms. Ensley's authority as her supervisor
seriously undermined management’s ability to maintain employee efficiency and discipline, and
EITSD should not be expected to exercise forbearance for such misconduct. Few other types of
misconduct go so directly to the heart of maintaining the efficiency of the service. Ms. AvilesWynkoop had absolutely no right to refuse to abide by legitimate supervisory authority, but
because she did to refuse to recognize Ms. Ensley as her supervisor, I was left with no choice but
to remove her from Federal Service.
4
Affidavit of Jerry Russell & Attachment
Page 4 of 20
Pleading Number: 2017011362

Submission date : 2017-03-17 15:36:21

Confirmation Number: 2041198969

page 48 of 95

As the Deciding Official, it was clear to me that Ms. Aviles-Wynkoop never had a clear
understanding that she was wrong in any respect and she did not comprehend that she had
engaged in misconduct. Even during her written reply to the proposed removal, Ms. AvilesWynkoop continued to assert that I was her first-line supervisor and not Ms. Ensley. However,
Ms. Aviles-Wynkoop’s assertion that I was her first-line supervisor ignored the fact that she had
reached the conclusion on her own that Ms. Ensley was not her supervisor. In her written reply,
Ms. Aviles-Wynkoop stated:
From 17 August 2015 till 28 August 2015, Jerry H. Russell was my first line
supervisor, who I reported to daily and had him in all my emails, keeping him in
the loop of work issues, with myself being a Contracting Officer Representative
(COR) and if I had to leave work early, Jerry H. Russell approved my leave.
Jerry H. Russell agreed, to become my first line supervisor, due to Carol Ensley
and her alleged allegations on 14 Aug 2015, which I addressed directly to Jerry H.
Russell and Jerry H. Russell agreed that the alleged allegations from Carol Ensley
would be null and void. If Jerry H. Russell didn't communicate my work and
myself leaving work early, that was between Jerry H. Russell and Carol Ensley.
Jerry H. Russell was and is still Carol Ensley's supervisor.
See Agency File, Tab 4b, Ref d, page 50 of 148. As I stated above, at no time did I become Ms.
Aviles-Wynkoop’s first-line supervisor. I never informed Ms. Aviles-Wynkoop that I was her
first line supervisor and it was not my job to approve Ms. Aviles-Wynkoop's leave.
Additionally, nothing stated by Ms. Ensley was “null and void.” At all times during Ms. AvilesWynkoop’s employment with EITSD, Ms. Ensley was her first-line supervisor and she approved
Ms. Aviles-Wynkoop's leave, not I. I never approved Ms. Aviles-Wynkoop’s leave.
Ms. Aviles-Wynkoop also engaged in a pattern of discourteous behavior towards
contractors with whom she had to work in order to perform the duties of her position at EITSD.
This misconduct also negatively impacted the agency's ability to function effectively.
On August 28, 2015, 61 calendar days or 44 business days after she started to work at
EITSD, Ms. Ensley placed Ms. Aviles-Wynkoop on paid administrative leave. In order to
maintain good order and business, it was imperative that Ms. Aviles-Wynkoop be removed from
the office because she was so disruptive.
While it appeared to be Ms. Aviles-Wynkoop’s first offense of misconduct while
working for my organization, it was actually a multitude of offenses that occurred in a very
limited period of time, which created severe disruption in the workplace. I believe that removal
was the appropriate penalty to impose for Ms. Aviles-Wynkoop’s misconduct. As stated above,
Ms. Aviles-Wynkoop had only worked for my organization for 44 business days before Ms.
Ensley felt compelled to have Ms. Aviles-Wynkoop removed from the workplace and place her
on paid administrative leave. Ms. Aviles-Wynkoop had only worked for the Agency for a very
short period of time. Because Ms. Aviles-Wynkoop was a short-term employee, it was clear
after that short period of time - only 44 business days on the job with EITSD - that we could not
allow Ms. Aviles-Wynkoop to continue to disrupt the workplace. We were left with no choice
5
Affidavit of Jerry Russell & Attachment
Page 5 of 20
Pleading Number: 2017011362

Submission date : 2017-03-17 15:36:21

Confirmation Number: 2041198969

page 49 of 95

but to propose and decide to remove her from Federal service. We could not keep someone so
volatile and disruptive in the workplace and have work completed, and for this reason we had to
place Ms. Aviles-Wynkoop on paid administrative leave after only 44 days. I found that there
was absolutely no potential for Ms. Aviles-Wynkoop's rehabilitation and so I was compelled to
remove her from Federal service. I believe, therefore, that it was appropriate to remove Ms.
Aviles-Wynkoop for her insubordination and discourtesy because her misconduct was so serious
and so egregious.
On October 27, 2015, Ms. Ensley proposed Ms. Aviles-Wynkoop's removal from Federal
service. As stated above, I was the deciding official. In making my decision, I completed a
Douglas Factors worksheet at the time I made my decision and it is attached to this sworn
affidavit.
The Douglas Factors worksheet speaks to everything I considered and balanced when
making my decision to remove Ms. Aviles-Wynkoop from Federal service. I considered the
proposal notice, the materials relied upon to write the proposal notice, Ms. Aviles-Wynkoop's
written reply and the Douglas Factors in making my decision. I considered the fact that Ms.
Aviles-Wynkoop’s misconduct was so egregious that Ms. Ensley placed her on paid
administrative leave on August 28, 2015, a mere 44 days after she reported for duty. I
considered it aggravating that Ms. Aviles-Wynkoop offended her supervisor when she refused to
recognize her authority and embarrassed her in front of her supervisors. She engaged in the most
blatant form of clear and express insubordination that I have ever encountered and she has never
apologized or even recognized her misconduct. Ms. Aviles-Wynkoop exhibited conduct that
negatively impacted the ability of EITSD to function effectively. The rationale for my decision
to remove Ms. Aviles-Wynkoop is set forth in my January 4, 2016 decision letter. As stated in
my decision letter, removal is within the range of penalties to impose for Ms. Aviles-Wynkoop’s
insubordination, disrespectful conduct towards your supervisor and intimidating and aggressive
behavior. I believe the penalty of removal for Ms. Aviles-Wynkoop's misconduct is the
appropriate penalty and I find that no lesser sanction could deter future misconduct.

Signed:

RUSSELLJERRY.HILT SSS*
ON JR.l 259828224

NJR.125992B224
DN: c*US, o=U.S. Government ou=DcD. ouaPKl
ou-WHS.cn-RUSSELUERRymTONJft.12S982e224
Date: 2017.03481S-2240-05W

Date:

RUSSELLJERRY.HILT
ONJR.1259828224 tSSSSS^S^MMnmam
DN: c»US, o=»ll.S. Government, ou=DoD,ou=PKI,

Da

ELIZABETH AVILES-WYNKOOP v. DEPARTMENT OF DEFENSE
' . ,
. Docket # DC-315H-16-0327-B-l .
*
Executed Affidavit of Victor Shirley
Summary Page
Case Title : ELIZABETH AVILES-WYNKOOP v. DEPARTMENT OF DEFENSE
Docket Number : DC-315H-16-0327-B-l
Pleading Title : Executed Affidavit of Victor Shirley
Filer's Name : Elizabeth E. Pavlick, Esq.
Filer's Pleading Role : Agency Representative
Details about the supporting documentation
#

Title/ Description

Mode of Delivery

1

Affidavit of Victor O. Shirley

Uploaded

Pleading Number: 2017011818

Submission date : 2017-03-21 12:04:35

Confirmation Number: 378924800

page 1 of 6

Table of Contents

3
4
6

Pleading Interview
Affidavit of Victor O. Shirley
Certificate of Service

Pleading Number: 2017011818

Submission date : 2017-03-21 12:04:35

Confirmation Number: 378924800

page 2 of 6

• ELIZABETH AV1LES-WYNK00P v. DEPARTMENT OF DEFENSE
Docket # DC-315H-16-0327-B* 1
Executed Affidavit of Victor Shirley .3 .
Online interview
1. Would you like to enter the text online or upload a file containing the pleading?
Enter Online

2. Please enter text of your pleading.
Enclosed please find an executed affidavit of Victor O. Shirley, which was Attachment 3 to the
Agency's Brief in Support of Removal of Appellant. No change were made to the attached affidavit,
and it is being filed solely to provide an executed affidavit, as the signature of Mr. Shirley was
inadvertently removed from the affidavit when it was uploaded to the MSPB website.

3. Does your pleading assert facts that you know from your personal knowledge?
No

Pleading Number: 2017011818

Submission date : 2017-03-21 12:04:35

Confirmation Number: 378924800

page 3 of 6

I, Victor O. Shirley, Chief of Staff for Washington Headquarters Services (WHS),
Enterprise IT Standard Support Services (EITSD), Joint IT Service Provider-Pentagon (JSP),
Department of Defense (DoD), hereby swear or affirm that the following statement is true and
correct.
1 held the same position and title now as I did in 2015, when Ms. Aviles-Wynkoop
worked in our office. I have held this position since 2013 and I have been a Federal employee
(including my military service) for over 30 years. My position as Chief of Staff is nonsupervisory and I act as an office manager and intermediary between leadership and the
employees in EITSD/JSP. My job includes handling office personnel matters and organizational
development.
Ms. Aviles-Wynkoop was only physically in the office from June 29, 2015 until August
28, 2015. During that time period, Carol Ensley was her first-line supervisor. It is hard for me
to believe that Ms. Aviles-Wynkoop was only physically in our office for approximately two
months because she caused so much stress and anxiety in the workplace that I thought she had
been there much longer than two months.
In approximately July of 2015, at least three EITSD/JSP employees came to me in my
official capacity as Chief of Staff in order to complain about Ms. Aviles-Wynkoop and the
abusive manner in which she treated them. They also described Ms. Aviles-Wynkoop’s
treatment as threatening and confrontational. According to these employees, she was loud and
communicated by yelling, which was very disconcerting. She was unpredictable, volatile and
unreasonable in her reactions. She was a bully and unprofessional in her interactions with
coworkers, customers and contractors.
I took complaints from these employees very seriously because 1 personally witnessed
Ms. Aviles-Wynkoop’s treatment of her coworkers in meetings and saw that her voice and
demeanor were aggressive, very forceful, and unfriendly. I believe she created a hostile work
environment in the workplace because her coworkers were fearful of her. She created a toxic
environment for her coworkers, customers and supervisors. She was a loose cannon and her
coworkers feared for their safety when they were around her. Some of the employees told me
that they were scared that she was going to do something violent.
I also observed that Ms. Aviles-Wynkoop had no respect for her supervisor, Ms. Ensley.
Ms. Aviles-Wynkoop did not respect anyone, if she thought she was smarter than they were.
I was not involved in Ms. Ensley’s decision to place Ms. Aviles-Wynkoop on paid
administrative leave on August 28, 2015, but I knew that it was going to happen that day. I also
knew that Ms. Ensley was concerned enough about Ms. Aviles-Wynkoop’s potential reaction to
receiving the letter informing her that she had been placed on administrative leave that Ms.
Ensley felt that she had to have two Pentagon Force Protection Agency police officers present
when she handed Ms. Aviles-Wynkoop the letter. I asked Ms. Ensley’s supervisor, Jerry
Russell, to get as many of the employees out of the office as he could during the time that Ms.
Ensley and the police officers were presenting Ms. Aviles-Wynkoop with the letter. I did not

Pleading Number: 2017011818

Submission date : 2017-03-21 12:04:35

Confirmation Number: 378924800

page 4 of 6

want to take any chances that Ms. Aviles-Wynkoop would become angry and do something
inappropriate.
The moment Ms. Aviles-Wynkoop was out of the office on administrative leave, several
EITSD/JSP employees told me that they felt relief and that the whole office became more
relaxed. Everyone in EITSD/JSP was much happier once Ms. Aviles-Wynkoop was gone.
SHIRLEY.VICTOR.OJsSSSorSjR,0,683,260

Signed:

R.1016831260

DN: c=US, o=U.S. Government. ou=DoD, ou=PKI,
oteWHS, cn=SHIRLEY.VICTOR.OJR. 1016831260
Date: 2017.03.17 10:11:42 -04W

Date:

17 March 2017

\

Pleading Number: 2017011818

Submission date : 2017-03-21 12:04:35

Confirmation Number: 378924800

page 5 of 6

Certificate Of Service

e-Appeal has handled service of the assembled pleading to MSPB and the following Parties.

Method of Service

Documents

Name & Address

MSPB: Washington Regional Office Executed Affidavit of
Victor Shirley

e-Appeal / e-Mail

Elizabeth Aviles-Wynkoop
Appellant

Executed Affidavit of
Victor Shirley

e-Appeal / e-Mail

James Vietti
Agency Representative

Executed Affidavit of
Victor Shirley

e-Appeal / e-Mail

I agree to send a printed copy of the electronic pleading with attachments to non-efilers by the
end of next business day, as follows:

Name & Address

Documents

Method of Service

Nate Nelson
Appellant Representative

Executed Affidavit of
Victor Shirley

Fax

1709 Halcun Drive
Petersburg, VA 23803
USA

Pleading Number: 2017011818

Submission date : 2017-03-21 12:04:35

Confirmation Number: 378924800

page 6 of 6

VII. INDEX TO APPENDICES

APPENDIX H

FAX COVER SHEET
(Slate Nelson, Appellant's Representative—Fax no 804-732-0770
To: Andrew M. Dunnaville, Administrative Judge
Subject: Appellant's close of the record submissions—Elizabeth Aviles
Wynkoop, Appellant—Docket Number DC-315H-16-0327-B-1
Number of pages 16

Appellant's Representative Phone Number 804-720-6269
C=3 ’

70

cn

E-mail address —-natenelson@starpower.net

■fjn

o
C2

3
l<r>
03

cp

Date: December 30, 2016

Q.-J

r°

CD

73®

72-

c3
■•

03

cP
TO
03

UNITED STATES OF AMERICA
MERIT SYSTEMS PROTECTION BOARD
WASHINGTON REGIONAL OFFICE
ELIZABETH A VILES-WYNKOOP
Appellant
DEPARTMENT OF DEFENSE
Agency

DOCKET NUMBER
DC-315H-16-0327-B-1

Date: December 30, 2016

APPELLANT’S BRIEF IN SUPPORT THAT THE APPELLANT
WAS NOT A PROBATIONARY EMPLOYEE
Now comes the appellant, to submit her close of the record submissions, as
required by the last AJ order. It appears the agency is resting their entire case on a
declaration by their account manager who has 28 years of government service.
There is no question the account manager is probably a good employee. It is
significant to note that the agency failed to list any special qualifications the
account manager had obtained. Longevity does not grant any special qualifications.
The appellant’s Representative is a Board-Certified Practitioner with 34 years’
experience, is a certified administrative law instructor, has been a guest speaker at
the AJ’s annual conference, and was of 1 of the 9 lawyers and practitioners who
were invited to help establish policy and rules for the Board. Therefore, it is
significant to note that the agency’s account manager has completely
misinterpreted the law and regulations cited in her declaration statement. The types
ofjobs and the 9-month break in service does not have anything to do with this

l

case because the only authority the agency used was 5 C.F.R. ss 315.401 in
reinstating the appellant. This is the major reason the case was remanded.
The agency continues to maintain the appellant was required to serve in a new
probationary period after reinstatement to the position from which she was
removed based exclusively on the “professional opinion of its Customer Account
Manager.” That opinion is based in large part on the Customer Account Manager’s
assessment of:

• The types of positions held previously on which the reinstatement is based,
• The nature of the work performed in the current positon as compared to the
appellant’s previous positions, and
• The length of the break in service between the appellant’s prior employment
and her employment with the agency.
These issues have nothing to do with whether the appellant is an “employee” under
5 USC(a)(l)(A)(i), excluded from the requirement for a new probationary period,
and thereby entitled to the procedural protections of an adverse action. As the
Board stated in its remand decision:
An agency may appoint by reinstatement to a competitive-service position
an individual who previously was employed under a career or careerconditional appointment. 5 C.F.R. § 315.401(a). Under 5 C.F.R. § 315.801,
the first year of service of an employee who is given a career or careerconditional appointment in the competitive service is a probationary period
when, among other things, the employee was reinstated under subpart D (5
2

C.F.R. § 315.401), unless during any period of service that affords a current
basis for reinstatement, the employee completed a probationary period or
served with competitive status under an appointment that did not require a
probationary period. In other words, when an agency appoints an individual
using reinstatement authority, the individual must serve a probationary
period unless during any prior service that forms the current basis for the
reinstatement, the individual completed probation or did not have to serve a
probationary period. 5 C.F.R. §§ 315.401, 801(a).
In other words, if an individual is reinstated under the authority of 5 C.F.R. §
315.401, if the employee completed probation in a position previously held on
which the reinstatement is based, then the employee need not serve a new
probationary period. This statement is controlling without any reference to the type
of work performed in the previous position or the length of a break in service. The
opinions of the agency’s Customer Account Manager cannot override the clear
language of the regulation and the Board’ s order based on that regulation.
The only authority referenced by the agency in its Notification of Personnel Action
by which it reinstated the appellant is 5 C.F.R. §§ 315.401. Therefore, the appellant
was not required to serve a new probationary period if she had completed a
probationary period in her previous position with a federal agency regardless of
any service break or any difference in the line of work performed.
The agency does not dispute nor even address the appellant’s ongoing claim that
she completed a probationary period in her previous government positions. In fact,
the agency appears to concede that the appellant completed probation previously

3

when its Customer Account Manager with 28 years of service and possessive of
“significant knowledge of WHS HRD and the hiring process” erroneously states,
“Therefore, it is my professional opinion that Ms, Aviles-Wynkoop was
required to serve a new probationary period and it makes no difference that
she completed previous probationary periods in the Clerk Typist and
Contract Specialist series. Her previous positions were not creditable
towards the completion of a probationary period for a 0343 series position
because it was not in the same Tine of work.*" - Declaration of Alice Bell
dated December 9, 2016, paragraph 12,
It is clear that the agency did not have the authority to impose a new probationary
period on the appellant as she has previously served probation in a prior position.
The appellant asks that you find that she was removed without the procedural
protections of 5 USC(a)(l)(A)(i), was misled by the proposal notice and decision
letter into thinking that the agency was tetminating her during probation, and that
her due process rights have thereby been violated.

THE APPELLANT’S INITIAL APPOINTMENT INTO FEDERAL
SESERVICE WAS IN 1982
The agency has either intentionally or incompetently confused the
concept of an initial appointment with a re-appointment. It should be
noted that a federal employee can only have one initial appointment into
federal service. It is well documented that the appellant’s initial
appointment into federal service was in 1982. See appellant’s exhibit A,
4

which is a SF 50 which states in block 45 “(the appellant) completed
service requirement for career tenure from 9-13-82 to 9-13-85.” The
appellant served three consecutive years of service without a break in
service. This was the initial appointment. The appellant should not have
been required to do additional unnecessary initial appointments because
this issue was fully satisfied in 1982. Just because an agency may
erroneously misinterpret the law, rule, or regulation, this does not make
it; right, and the erroneous activity must be challenged in the interest of
justice and equality. More significantly, it does not matter how many
erroneous and incorrect SF forms the agency may have generated after
the initial SF 50, the additional SF 50 forms were also incorrect and
illegal because the re-appointment was exclusively done under 5 C.F.R.
315. 401(a).
The appellant was an individual in the completive service. Various SF
50 forms from the small business administration, HUD, and other
agencies have confirmed this fact (see attached SF 50). She was not
serving an initial appointment into the competitive service when she was
terminated from the agency. There has been no finding or evidence that
she accepted a new probation period or the imposition of a new
probation period was reasonable. When the agency initially hired the
appellant under 5 C.F.R. 315.401, there was no discussion about the
appellant serving a probationary period. The appellant was hired on 62^-15. When the appellant received her first SF 50 on 7-29-15, she
5

immediately challenged the concept of the agency attempting to impose
ap additional probationary period. She sent the agency an e-mail on 729-15, stating “ I should not be on probation since I have 18 years of
service under CSRS as a federal employee.” See appellant’s exhibit B. It
is| now clear that the agency did not have the authority to impose a new
probationary period on the appellant as she previously served a
probation in two prior positions. The appellant also served an additional
probationary period at her last agency HUD because the agency failed to
inform the appellant she was serving a probationary period. The
appellant also successfully completed the full 1 year probationary
period. This is the appellant’s exhibit C. The agency abused their
authority by taking an unjustified personnel action that deprived the
appellant from receiving her full due process rights under chapter 75.
IF THE APPELLANT PREVAILS ON THE PROBATION ISSUE,
THEN AS A MATTER OF LAW, SHE MUST BE IMMEDIATELY
REINSTATED WITH BACK PAY, INTEREST, BENEFITS, AND
I

REIMBURSEMENT FOR ATTORNEY FEES
If the appellant is the prevailing party on the probationary issue, then she
must be reinstated because her due process rights were violated under
chjapter 75, and she did not receive adequate notice of the charges. Once
the appellant has been reinstated and it is confirmed that she is an
i

6

employee, then a hearing date should be established to hear the
charges. The agency is not entitled to a trial to hear the
whistleblowing
*
merits of their proposed and removal letters because they grossly
violated the appellant’s due process rights. If due process is violated in a
criminal or murder issue, then the charges must be dismissed as a matter
of law. Federal employees have this same benefit. As stated earlier, the
appellant served in many re-appointment positions that did not require
an additional probationary period (see attached SF 50 forms). The
agency rolled the dice and lost because they put their entire case into the
“professional” opinion of its Customer Account Manager with 28 years
of service. Again, longevity has its place, but it does not establish
competence. The appellant has well exposed the errors of the agency’s
case, and the erroneous misinterpretation of the law and regulations by
thb agency. Although the Board cited the law in their remand about 5
CiF.R 301, 401(a), it is amazing the agency found a way to misinterpret
this regulation. There can be little doubt that the agency was in the
business of retaliating against the appellant for her whistleblowing
activities. This will be proved at the next hearing. Very unfortunately,
*

the agency has ruined any possibility for settlement because they tried to
destroy the appellant by retaliation and reprisal because they
intentionally and willfully archived her security clearance for the
purpose of preventing her from working at other agencies. This was just
plain mean spirited and vindictive. The appellant is determined to have

i

7

these agency officials referred to the special counsel for investigation
arid prosecution. The tax payers and the appellant are the victims of less
than honorable agency officials who are entrenched and determined to
continue their corrupt enterprise. In another hidden report, the appellant
has been made aware of fraud and waste that totals more than 124
Billion dollars. It is now a fact that WHS has been connected to this
waste. The appellant was terminated because she was trying to prevent
some of this waste by holding the contractors accountable. Without
proper third party intervention, this fraud, waste, and abuse of authority
will continue until this country is bankrupt, and this could compromise
our national security.
THE APPELLANT IS RESPECTFULLY REQUESTING THAT
THE AJ REVIEW HIS POSITION ABOUT GRANTING A
HEARING ON THE MERITS OF THE CASE IF THE
APPELLANT PREVAILS ON THE PROBATION ISSUE
The appellant firmly believes that if the agency loses the probation issue,
then they can’t be granted a hearing on the merits of the case. According
to: long establish board law, all the appellant has to defend is the contents
of the proposed removal and decision letters. The proposal and decision
letters both state the appellant was a true probationary employee.
Probationary employees are not entitled to due process rights under
8

chapter 75. The appellant is entitled to a full hearing on the affirmative
defenses because she amended her appeal in a timely manner. If the
appellant loses the probation issue, then she is not entitled to have a
hearing. However, if the appellant is reinstated with all rights and
i

benefits, then we could have a discussion about granting the agency a
hearing on the merits of their case. This is only being presented to
perhaps
save time from additional litigation.
;
:

The appellant is respectfully requesting that the AJ rule the appellant
was not a probationary employee, she immediately be reinstated with
back pay and interest, all benefits to include her security clearance be
ftjlly restored, and she be reimbursed for all attorney fees.
!
i
!

Submitted by

------

Nate Nelson, Appellant’s Representative
i

+

i:
9
!
i

APPELLANT'S EXHIBIT

A

SF 50 INDICATING APPELLANT COMPLETED INITIAL
APPOINTMENT
I------ ;

•sr»

CD

m
c~>
co

;
;

I
i

:

i
;

i

;
!

!

i
:
;

!

^3

o

i—i

73»

m
o
m
<__

m

CD

o

CO

■Cr

CD

~o

•V
:
•eo of Pw*c«m( Man«B«)i>4M
op. 23a-33, SuOth.4

NOTIFICATION OF PERSONNEL ACTION

mm

i*

mm***

tirtifiZoftoSZ-------

0

mmmm.

wr.THfcPETH

e-A.CMta

«fi£4PS/gl.

&8. MaturlOf Action

nA/on/n*

MM

REINS-CAREER

in

B-D. 1*9*1 Authority

M

REG 315.401
AT, Leptl /vuthority

b

fiCCoP«

Authority

9-E.CodO

AT. 1*0*1 Authority

16, TOi Position Tlite and Number

JM: Position 71l(a and Number
i

CONTRACT SPECIALIST
12. Totals*^

13, Pay 8*tt* l9.Peywll7.Occ.Coda [18.OraOaAjtva* |19. StetvRat* 20.T«trf 3*I«v/Aw*rd |2»-

1ZC.MJ. Bask) Pay

128.LocaityAd].

120. OtlNT Ply

11

1102

GS
glcPly

CS4

0000068

3502
1*0 9.OCC.j0ode 10. GrMUUvtfj 11. Staprittte

m

4, EHaeuva Oita

3. Osta «l 8&th

2, Sodai Security Munrtwr

$

5 42976

i
end location of Podtitxt'* OiftaniiatSon

bi

208. Uxatty M}-

20A. Bows Pay

5475

32. N*m* andlowJon oJPraiUfln'lOf^sntiotJoo

$ 48451

E

20C. Ac?. BwfcPay

48451

2flD. Cth*, P3

$

NATIONAL CAPITAL REGION
NATIONAL CAPITAL PARKS-EAST
ADMINISTRATIVE OFFICE
WASHINGTON, DC

(PMVffiTI?!®

■nmlWmfM
—1
1.UoM
J___ S^S-Poim

“ BASIC ONLY

i

9

iFICA & CSRS

r^r0i^lPWA^^sm
UoaOcouoiod
”7
1 .Compefljhre Sendee S.SESGMMtf
I
2.&eepiedS«n4oe
4 . SES Cl/oar B*>Q»vod
y Station Cod*

-OOlCj-OOl
0«oey ds&jWc 4i.veT-stAT

S

loo
!

rn

O.Plena
1 .Permenam
28. AnnAtem Indicator

2 • Conditional
3. Indefinite

FH SEX

NOT APPLICABLE

31. Sorvlc* Camp. Ditn (Luva) 32. W«k Schedule

IMWlFlMl

l|4t

28, AotneyUM

24, Tony*
S-IOPoiatOthtr
9- lOPomUCcmpanaaMiflO*

9.iOPocm/«M«i!ir ..
4. lOPolrttCompentabl*

X

04/20/03

L-TIME

39, Appropriation Coda
$t.R£ACB|egaY
£• Exempt
N«Monajcompt
39. Duty Sutton (City* County •&«<•* Overtaasuxaitei)

S

26. Viti*in*Prel«er

m

I yes
22, P«yWl*Oew„nl

0 1
93. PVt'TlRM Hew* I
BiwoeMy
Pay Po^o<

mmmi

57. B«8*8Uno Unf

7777

WASHINGTON, DISTRICT OF COLUMBIA
«.EdUC‘'EVL—Iaj.SUPV "LTTE 144.POSITION sensitivity
NONSENSITIVE/LOW RI
8
04

POINTMENT AFFIDAVIT EXECUTED 04/21/03,
MPLBTED SERVICE REQUIREMENT FOR CAREER TENURE FROM 09/13/82 TO 09/13/85.
EDITABLE MILITARY SERVICE: NONE
EVIOUS RETIREMENT COVERAGE* PREVIOUSLY COVERED
, DATED 03/26/03.
LECTED FROM MPP CERT #NPS-NACE-03-01
LL PERFORMANCE LEVEL IS GS-11

i

i

;
90. SfeiMtyraMiutfttAtlMtlOfl and T»4 «(

tfoyhig Department or Agency

KATRINA L. ROBERT
PERSONNEL OFFICER;
_______|04/07/03___________
021151711
2902
OFF
copy
Long-Term
Record
- d6 not DKS'J^OY
2

- NATIONAL PARK SERVICE
ncyCode |

IN10

48. PtrtoonaJ 0/floe ID

149. Approval Date

:
i

APPELLANT'S
EXHIBIT
!

B

i

i
i
!
!
!

EMAIL INDICATING EMPLOYEE DID NOT AGREE TO A
NEW PROBATIONARY PERIOD, AND SHE INFORMED THE
AGENCY SHE WAS NOT A PROBATIONARY EMPLOYEE
i

i

I
i

:
:
I

!
:
:
i

;
t

:!
;
:
i

!

I
!
:

i
!
;
:
:
i

I!

—fOriginal Message---Frpm: Aviles-Wynkoop, Elizabeth CIV WHS EITSD (US)

| sffsouthall, Cynthia A CIV WHS HRD (US); Talcott, Lillie M CIV WHS HRD (US)
Cc: Ensley, Carol A CIV WHS EITSD (US); Russell, Jerry H Jr CIV (US); Aviles-Wynkoop,
El zabeth CIV WHS EITSD (US)
St bject: FW: SF50s for new hires
Importance: High
Hollo.
I was
In block 24 it states that I'm conditional. I'm a permanent employee, which should
h^ve a code 1,

I!

ii

Also, there is a note that I'm

i. 11

mm........................
!■

ii
Please
correct my SF50, to reflect exactly what my tenure is which is that I m a
permanent employee.

Thanks!
ii
1!

! i

Respectfully,
ii
:i
ii

Elizabeth Aviles-Wynkoop
dlfice Number; 703-695-2819
11
i;

i:

n
!

•

i

G

APPELLANT'S EXHIBIT
i

SF 50 FROM HUD INDICATING THE APPELLANT ALSO
COMPLETED AN ADDITIONAL PROBATIONARY PERIOD
FbR 1 YEAR. THE APPELLANT ALSO WORKED FOR HUD 3
YEARS. THIS EXHIBIT IS MARKED AS C-l AND C-2
!
:

r

;
;

i

*
I

:

i

i

;
i
:
:
i
;
;
:

5
1

V* *»VV«»

T

|

! (Lari, FStttjjMiMIe)
!S WYNKOOF, ELIZABETH

:ode
}

'ode
•rvt
Tode

3. Date of Birth

4, Effective D«t»

04/05/61

09/30/14

069*60-8402

}-3i Nature of Action
RESIGNATION

6r-\. Code

6-B, Nature ot Action

S-D. Legal Aotbority
REG 715,202
S-F. Legal Authority

6-C. Code

6—D. Legal Authority

6~E* Code

6-F. Legal Authority

w-

15.TO: Position Title and Number

M: Position' 'Ale and Number
rRACr 0\ EftSIGHT SPECLST
682 RP00(5
iO

2. Social Security Number

!

j

1 «

E Fay

UB-LocaMr AdJ.

7.00

18,702.00

J&fayPlaii ;!7.0cc!code

: U, Pax Basts

| S. Oft. Cot t jit Cndear level II. Sim or Kate 12. Total Salary
i 1101
95,919.04
03

tS. Grade or Level SlfcSttp or JUtejM. Total S»Iary/AW»r4 III. Par Bi

Si

; FA
[UP-OiUrPv

I IJC-AdJ.paitcJtay
! 95,919.00

JOB-Locality M).

J0A. Bute Pay

!i .00

i

! 20C. A4i- Bade P»>
i

20D. Other Pay

.00

.00

22. Name and Location of Position's Organization

« and Local ion of Pesitioa’* Organization

INO AND JRBAN DEVELOPMENT
O

IB
HU 8311160010OIOQQO00

iaifa

>f«Ql PnfBrjote
l-Nod» jj
1 -S-ftdozi.
4- 10-Wcl/Ca»pcn«l>lf

'JfLli™*
1 0

3“

1

<- J(hPotai'CBBip«ov$te/3tt&

j l^Fenuecot

PP 01 2015

2-OoadltRul
3 - Iodtflnfr

|25. Agency Use

F1CA & cjjlVIL SERVICE

01/27m

i

F

X

NO

29. Pay Rate Deternlloant

o

I\ notapflicabl

33. Part-Time Hour* Per
j Biweekly
I Pap Period

I 31. Service Comp. Bata (Leave) ' 32- Work Scbedulc

Irctncot Plai

YES

i

; 28. Annuitant Indicator
| NOT APPLICABLE
I 9

;lt
i
| BA5IOSX FAMILY

26. veterans Preference for RIF

! FULL TIME

.V

ition Occupied
ll-CoawcltlhaLrrhr
lt-Ci«(«tSa^n

>•:

S-QS Gg—ail
1 - 4£3 (Urirf

I

i!
.i

**

j
1

[37. Bargaining Unit Status

j 36. Appropriation Code

s-cmjh

H • Nf

! 1120

•

| 39. Buty Station (City - County - State or Overseas Location)

y Station Code
.0-001
nay Data

“T

>^35. FLSA Category

WASHINGTON DIST OF COLUMBIA DC
41.

4A

j 43.

i 41.

;

±1.
JSfelNG;ADDRE$5= PO BOX 7163 ALEXANDRIA VA 22307-0163
•»!
.

>ON for!resignation: employee resigning for PERSONAL REASONS
>-SUM E&YMENT TO BE MADE FOR ANY UNUSED ANNUAL LEAVE.
■!

.;
i•
i
i

c-t

i

;!
!
Ii
I!
!!

•. i

50. SIpnore/AulbeaHcRttoo ud Title 4(Appwvtnj OfQcIal

ploying Department or Agency
SENG AriD URBAN DEVELOPMENT

JE/S BY: FELICIA A. PURIFOY

i i

ncy Code j ; |48- penenucl Office ID

3

!; I: 4400

>-316

'] «. Approval Date

DIRECTOR, HUMAN CAPITAL SERVICES

I 10/01/14
2 * OPF Copy - Long-Twfit Record! “ DO NOT DESTROY -

I !

EAltkmi Fetor to 7/si An Not UuHt
MSN7SW-

:!
.1

m

NOTIFICATION OF PERSONNEL ACTION

Hkt «f riiKH d MieigHMat

ame (Last, pjjret. Middle)

2. Social Security Number

/lLES-WYNKOOP, ELIZABETH

5

.Code

5-8. Nature of Acdon
CAREER APPt
5-D. Legal Authority
OPM DELE AGR CERT H
LF. Legal Authority

100
Code

I

BWA
.Code

3. Date of Birth

4. Effective Date

06/OS/61

08/14/11

069-60-8402

S-A. Code

i 6-B. Nature ofAction

6-C. Code

6-D. Lesal Authority

6-E. Code

6-f. Legal Authority

IS. TO: Position Tide end Number
CONTRACT OVERSIGHT SPECLST
I
6S68I682 HP0005

lOM: Poildi » Title and Number

I
ittan |>.Om. Code

jlft. Grsde/Lrvri

ii.step/Ratc

i 13. Pay Dub

JlL Total Salary

I)2B. Locality Ad/,

bade Pay

I

!

i

i
uc.Ad/.BuicPay

1120* Offecr Pay

!

| .00

.00

jlAFayPlM I 17.Ott.Code

GS

j H. Cr*4e/L*«t

13

1101

! 17,339.00

S- iWhtoiiOiktr
](hP4nifCa«pciuia&!£ft<)%

i

28. Agoultsnt Indicator

9

0 | BASK'
31. Service Comp. Date (Leave)

letiretnept Flan
F1CA St CIVIL SERVICE

oaidou Occupied
l*OrapLlwt(rici

I—SESCuicnl

l

4-SESCw*aHmrwa

|J-t»*»4vlSw*e

I

08/14/11

35. PLSA Category

S

.00

42.

j43.

i

!

j 24. Veterans Preference for

)

'yesT x ILno

p9. Pay Rale Determinant

s

0

133. Part-Time Hours Per
~ ' Biweekly
I
Pay Period
i

36. Appropriation Code

j 37- Bargaining Unit Statu*
j

1120

44.

;

ii
Remarks |

PF MAINTAINED BY HUD/PBRD
il 7TH STREET, SW. RM 2135
ASHINGjTON, DC 20410.
SlEVlOUis RETIREMENT COVERAGE: COVERED.
REDITAiBLE MILITARY SERVICE: NONE.
PFOINT|fENT AFFIDAVIT EXECUTED 08/13/11.
)SITtON IS AT THE FULL PERFORMANCE LEVEL OR BAND.
OMPLETED SERVICE REQUIREMENT FOR CAREER TENURE FROM 04/2 S/95
1/26/98. |]
OU 'WILL BE IN TENURE GROUP II UNTIL YOU COMPLETE THE ONE-YEAR
R.OBATIONARY PERIOD THAT BEGAN 08/15/11.
HEN Yoju WILL BE CHANGED BACK TO TENURE GROUP 1.
ELECTEP FROM VACANCY ANNOUNCEMENT Hll-MP-473383-VMZ
ND OPlv| CERTIFICATE H-l 1-YAM-O3740S0 DATED 6/20/11.
*1

SO. Slgnaturc/ADlheotication and Title of Approving O/fldal

Imployiog Department or Agency
JUSINcijAND URBAN DEVELOPMENT
iganey Co

1?
HU 83!,

48. Penannel Office ID
4400

»M>. other Pay

32. Work Schedule
F ] FULL TIME

E i
i
39. Duty Station (City - County — State or Overseas Location)
WASHINGTON DIST OF COLUMBIA DC

0010-001 *

41.

! NOT APPLICABLE

E^txtap*
N'KsBtMO^I

>oty Station iCode

Agency Data'
it

i

89,033.00

|2S. Agency Use
2 - CortRfeAAl
3»l94«QaJ<*

» 1

ISM

□

J0C.Adj. Bohr Pay

PP17 2011

24. Tenure
3 - !fr-Pa(oin>bmW
4“ IM^Al/CDfcpdhiAM*

j

2J. Name and Location of Positton'* organization
HOUSINC and urban development
P1H, IO
P1H

fereoce
t-N «*

J3I.P

89,033.00

I

HU 831116001001000000

n

JO. Total SeleryMward

01

I JOB. Loeettly AdJ.

20A. Bole Pay

71,074.00

Name and L >cation of Position’* Organization

tettr*Ds

j l».St«p/IUte

j

E/S BY: ALLISON R HOPKINS
49. Approval Date
08/16/11

DIRECTOR, OFFICE OF HUMAN RESOURCES

CERTIFICATE OF SERVICE
I certify that a copy of the attached document was forwarded the parties on December 30,
20:16,2016 as indicated below:

Ms Elizabeth E Pavlick, Agency Counsel-------------- Faxed and mailed

Department of Defense
i

Assistant General Counsel
Pejntagon Force Protection Agency
i
11|55 Defense Pentagon
Rnji 2E 1035
Washington, DC 20301

D^te: December 30, 2016,2016
i

^J

Nate Nelson

1709 Halcun Drive
Petersburg, Va 23803
Phone 804-720-6269
Fax 804-732-0770

I
i

i

!
l

